42410                    Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

submitted and received by the time          several provider groups and industry          • Responding promptly to detected
frame indicated above.                      representatives. Many home health care      offenses and developing corrective
   We anticipate that the DME guidance      providers have expressed interest in        action.
will contain the seven elements that we     better protecting their operations from       Using these seven basic elements, the
consider necessary for a comprehensive      fraud and abuse through the adoption of     OIG has identified specific areas of
compliance program. These seven             a voluntary compliance program. The         home health operations that, based on
elements have been discussed in our         OIG has previously developed and            prior Government enforcement efforts,
previous guidances and include:             published compliance program                have proven to be vulnerable to fraud
   • The development of written             guidances focused on the clinical           and abuse. The development of this
policies and procedures;                    laboratory and hospital industries (62      Compliance Program Guidance for
   • The designation of a compliance        FR 9435, March 3, 1997 and 63 FR 8987,      Home Health Agencies has been further
officer and other appropriate bodies;       February 23, 1998, respectively). We        enhanced by input from various home
   • The development and                    believe that the development of this        health trade associations and others
implementation of effective training and    compliance program guidance for the         with expertise in the home health
education;                                  home health industry will continue as a     industry. Regardless of a home health
   • The development and maintenance        positive step towards promoting a           agency’s size and structure—whether
of effective lines of communication;        higher level of ethical and lawful
   • The enforcement of standards                                                       large or small, urban or rural, for-profit
                                            conduct throughout the entire health        or non-profit—the OIG believes that
through well-publicized disciplinary        care community.
guidelines;                                                                             every home health agency can and
                                            FOR FURTHER INFORMATION CONTACT:            should strive to accomplish the
   • The use of audits and other            Michael Shaw, Office of Counsel to the
evaluation techniques to monitor                                                        objectives and principles underlying all
                                            Inspector General, (202) 619–2078.          of the compliance policies and
compliance; and
   • The development of procedures to       SUPPLEMENTARY INFORMATION: The              procedures set forth in this
respond to detected offenses and to         creation of compliance program              accompanying guidance. Like the
initiate corrective action.                 guidances has become a major initiative     previously-issued compliance guidances
   We would appreciate specific             of the OIG in its efforts to engage the     for hospitals and clinical laboratories,
comments, recommendations and               health care community in combating          adoption of the Compliance Program
suggestions on (1) risk areas for the DME   fraud and abuse. In formulating             Guidance for Home Health Agencies set
industry, and (2) aspects of the seven      compliance guidances, the OIG has           forth below will be voluntary.
elements contained in previous              worked closely with the Health Care           A reprint of the OIG’s Compliance
guidances that may need to be modified      Financing Administration, the               Program Guidance for Home Health
to reflect the unique characteristics of    Department of Justice and various           Agencies follows.
the DME industry. Detailed                  sectors of the health care industry to
justifications and empirical data           provide clear guidance to those             Office of Inspector General’s
supporting suggestions would be             segments of the industry that are           Compliance Program Guidance for
appreciated. We are also hopeful that       interested in reducing fraud and abuse      Home Health Agencies
any comments, recommendations and           within their organizations. The first of    I. Introduction
input be submitted in a format that         these compliance program guidances
addresses the above topics in a concise     focused on clinical laboratories and was       The Office of Inspector General (OIG)
manner, rather than in the form of          published in the Federal Register on        of the Department of Health and Human
comprehensive draft guidance that           March 3, 1997 (62 FR 9435). Building on     Services (HHS) continues in its efforts to
mirrors previous guidance.                  basic elements of the first issuance, the   promote voluntarily developed and
                                            second compliance program guidance          implemented compliance programs for
  Dated: July 28, 1998.                     developed by the OIG focused on the         the health care industry. The following
June Gibbs Brown,                           hospital industry and was published in      compliance program guidance is
Inspector General.                          the Federal Register on February 23,        intended to assist home health
[FR Doc. 98–20965 Filed 8–6–98; 8:45 am]    1998 (63 FR 8987). The development of       agencies 1 and their agents and
BILLING CODE 4150–04–P                      these types of compliance program           subproviders (referred to collectively in
                                            guidance is based on our belief that a      this document as ‘‘home health
                                            health care provider can use internal       agencies’’) develop effective internal
DEPARTMENT OF HEALTH AND                    controls to more efficiently monitor        controls that promote adherence to
HUMAN SERVICES                              adherence to applicable statutes,           applicable Federal and State law, and
                                            regulations and program requirements.       the program requirements of Federal,
Office of Inspector General                    The OIG has identified seven             State, and private health plans.2 The
                                            fundamental elements to an effective        adoption and implementation of
Publication of the OIG Compliance
                                            compliance program. They are:               voluntary compliance programs
Program Guidance for Home Health
                                               • Implementing written policies,         significantly advance the prevention of
Agencies
                                            procedures and standards of conduct;        fraud, abuse, and waste in these health
AGENCY: Office of Inspector General            • Designating a compliance officer       care plans while at the same time
(OIG), HHS.                                 and compliance committee;                   further the fundamental mission of all
ACTION: Notice.                                • Conducting effective training and
                                            education;                                    1 The term ‘‘home health agency’’ is applied in

SUMMARY:    This Federal Register notice       • Developing effective lines of          this document as defined in section 1861(o) of the
sets forth the recently issued              communication;                              Social Security Act, 42 U.S.C. 1395x(o).
Compliance Program Guidance for                • Enforcing standards through well-        2 This Compliance Program Guidance for Home

                                                                                        Health Agencies is not intended to address issues
Home Health Agencies developed by the       publicized disciplinary guidelines;         specific to suppliers of durable medical equipment,
Office of Inspector General (OIG) in           • Conducting internal monitoring and     infusion therapy, and other services typically
cooperation with, and with input from,      auditing; and                               provided in the home setting.
                         Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                                  42411

home health agencies, which is to            where claims and billing operations are                   A. Benefits of a Compliance Program
provide quality care to patients.            often the source of fraud and abuse, and                     In addition to fulfilling its legal duty
   Within this document, the OIG first       therefore, historically have been the                     to ensure that it is not submitting false
provides its general views on the value      focus of Government regulation,                           or inaccurate claims to Government and
and fundamental principles of home           scrutiny, and sanctions.                                  private payors, a home health agency
health agency compliance programs,              It is incumbent upon a home health
                                                                                                       may gain numerous additional benefits
and then provides the specific elements      agency’s corporate officers and
                                                                                                       by voluntarily implementing an
that each home health agency should          managers to provide ethical leadership
                                                                                                       effective compliance program. Such
consider when developing and                 to the organization and to assure that
                                                                                                       programs make good business sense
implementing an effective compliance         adequate systems are in place to
                                                                                                       because they help a home health agency
program. While this document presents        facilitate ethical and legal conduct.
                                                                                                       fulfill its fundamental care-giving
basic procedural and structural              Employees, managers, and the
                                                                                                       mission to patients and the community,
guidance for designing a compliance          Government will focus on the words
                                                                                                       and assist home health agencies in
program, it is not in itself a compliance    and actions of a home health agency’s
                                                                                                       identifying weaknesses in internal
program. Rather, it is a set of guidelines   leadership as a measure of the
to be considered by a home health                                                                      systems and management. Other
                                             organization’s commitment to
agency interested in implementing a                                                                    important potential benefits include the
                                             compliance. Indeed, many home health
compliance program.                                                                                    ability to:
                                             agencies have adopted mission                                • Concretely demonstrate to
   The OIG recognizes the size-              statements articulating their
differential that exists between                                                                       employees and the community at large
                                             commitment to high ethical standards.                     the home health agency’s strong
operations of the different home health      A formal compliance program, as an
agencies and organizations that                                                                        commitment to honest and responsible
                                             additional element in this process,                       provider and corporate conduct;
compose the home health industry.            offers a home health agency a further
Appropriately, this guidance is                                                                           • Provide a more accurate view of
                                             concrete method that may improve                          employee and contractor behavior
pertinent for all home health agencies,      quality of care and reduce waste.
whether for-profit or non-profit, large or                                                             relating to fraud and abuse;
                                             Compliance programs also provide a                           • Identify and prevent illegal and
small, urban or rural. The applicability     central coordinating mechanism for
of the recommendations and guidelines                                                                  unethical conduct;
                                             furnishing and disseminating                                 • Tailor a compliance program to a
provided in this document depends on         information and guidance on applicable                    home health agency’s specific needs;
the circumstances of each particular         Federal and State statutes, regulations,                     • Improve the quality, efficiency, and
home health agency. However,                 and other requirements.                                   consistency of patient care;
regardless of a home health agency’s            Implementing an effective compliance                      • Create a centralized source for
size and structure, the OIG believes that    program requires a substantial                            distributing information on health care
every home health agency can and             commitment of time, energy, and                           statutes, regulations, and other program
should strive to accomplish the              resources by senior management and the                    directives related to fraud and abuse
objectives and principles underlying all     home health agency’s governing body.3                     and related issues;
of the compliance policies and               Superficial programs that simply                             • Formulate a methodology that
procedures recommended within this           purport to comply with the elements                       encourages employees to report
guidance.                                    discussed and described in this                           potential problems;
   Fundamentally, compliance efforts         guidance or programs that are hastily                        • Develop procedures that allow the
are designed to establish a culture          constructed and implemented without                       prompt, thorough investigation of
within a home health agency that             appropriate ongoing monitoring will                       alleged misconduct by corporate
promotes prevention, detection, and          likely be ineffective and could expose                    officers, managers, employees,
resolution of instances of conduct that      the home health agency to greater                         independent contractors, consultants,
do not conform to Federal and State          liability than no program at all. While
law, and Federal, State, and private                                                                   nurses, and other health care
                                             it may require significant additional                     professionals;
payor health care program requirements,
                                             resources or reallocation of existing                        • Initiate immediate, appropriate, and
as well as the home health agency’s
                                             resources to implement an effective                       decisive corrective action;
business policies. In practice, the
                                             compliance program, the OIG believes                         • Minimize, through early detection
compliance program should effectively
                                             that the long term benefits of                            and reporting, the loss to the
articulate and demonstrate the
                                             implementing the program outweigh the                     Government from false claims, and
organization’s commitment to ethical
                                             costs.4                                                   thereby reduce the home health
conduct. The existence of benchmarks
                                                                                                       agency’s exposure to civil damages and
that demonstrate implementation and            3 Recent case law suggests that the failure of a
                                                                                                       penalties, criminal sanctions, and
achievements are essential to any            corporate Director to attempt in good faith to            administrative remedies, such as
effective compliance program.                institute a compliance program in certain situations
                                             may be a breach of a Director’s fiduciary obligation.     program exclusion; 5 and
Eventually, a compliance program
                                             See, e.g., In re Caremark International Inc.
should become part of the fabric of          Derivative Litigation, 698 A.2d 959 (Ct. Chanc. Del.      in response to a Government investigation resulting
routine home health agency operations.       1996).                                                    in a civil or criminal judgment or settlement are
   Specifically, compliance programs           4 Current Health Care Financing Administration          unallowable, and are also made specifically and
guide a home health agency’s governing       (HCFA) reimbursement principles provide that              expressly unallowable in corporate integrity
body (e.g., Board of Directors or            certain of the costs associated with the creation of      agreements and civil fraud settlements.
                                             a voluntarily established compliance program may            5 The OIG, for example, will consider the
Trustees), Chief Executive Officer           be allowable costs on certain types of home health        existence of an effective compliance program that
(CEO), managers, clinicians, billing         agencies’ cost reports. These allowable costs, of         pre-dated any governmental investigation when
personnel, and other employees in the        course, must at a minimum be reasonable and               addressing the appropriateness of administrative
efficient management and operation of a      related to patient care. See generally 42 U.S.C.          sanctions. The burden is on the provider to
                                             1395x(v)(1)(A) (definition of reasonable cost); 42        demonstrate the operational effectiveness of a
home health agency. They are especially      CFR 413.9(a), (b)(2) (costs related to patent care). In   compliance program. Further, the False Claims Act,
critical as an internal control in the       contract, cost specifically associated with the           31 U.S.C. 3729–3733, provides that a person who
reimbursement and payment areas,             implementation of a corporate integrity agreement                                                   Continued
42412                          Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

   • Enhance the structure of home                    of this compliance program guidance.                   regard to compliance programs, one
health agency operations and gain                     Therefore, in drafting this guidance, the              model is not suitable to every home
consistency between separate business                 OIG received and considered input from                 health agency. Nonetheless, the OIG
units.                                                various home health and medical                        believes that every home health agency,
   Overall, the OIG believes that an                  associations, as well as professional                  regardless of size or structure, can
effective compliance program is a sound               practice organizations. Further, we took               benefit from the principles espoused in
investment on the part of a home health               into consideration previous OIG                        this guidance.
agency.                                               publications, such as Special Fraud                      The OIG believes that every effective
   The OIG recognizes that the                        Alerts, the recent findings and                        compliance program must begin with a
implementation of a compliance                        recommendations in reports issued by                   formal commitment by the home health
program may not entirely eliminate                    OIG’s Office of Audit Services and                     agency’s governing body to include all
fraud, abuse, and waste from the home                 Office of Evaluation and Inspections, as
health agency system. However, a                                                                             of the applicable elements listed below.
                                                      well as the experience of past and recent              These elements are based on the seven
sincere effort by home health agencies                fraud investigations related to home
to comply with applicable Federal and                                                                        steps of the Federal Sentencing
                                                      health agencies conducted by OIG’s                     Guidelines.10 Further, we believe that
State standards, as well as the                       Office of Investigations and the
requirements of private health care                                                                          every home health agency can
                                                      Department of Justice. As appropriate,                 implement most of our recommended
programs, through the establishment of                this guidance may be modified and
an effective compliance program,                                                                             elements that expand upon the seven
                                                      expanded as more information and                       steps of the Federal Sentencing
significantly reduces the risk of                     knowledge is obtained by the OIG, and
unlawful or improper conduct.                                                                                Guidelines. We recognize that full
                                                      as changes in the law, rules, policies,                implementation of all elements may not
B. Application of Compliance Program                  and procedures of the Federal, State,                  be immediately feasible for all home
Guidance                                              and private health plans occur. New                    health agencies. However, as a first step,
                                                      compliance practices may eventually be                 a good faith and meaningful
   Given the diversity within the                     incorporated into this guidance if the
industry, there is no single ‘‘best’’ home                                                                   commitment on the part of the home
                                                      OIG discovers significant enhancements                 health agency administration, especially
health agency compliance program. The
                                                      to better ensure an effective compliance               the governing body and the CEO, will
OIG understands the variances and
                                                      program.                                               substantially contribute to a program’s
complexities within the home health                      The OIG recognizes that the
industry and is sensitive to the                                                                             successful implementation. As the
                                                      development and implementation of
differences among large national and                                                                         compliance program is implemented,
                                                      compliance programs in home health
regional multi-home health agency                                                                            that commitment should cascade down
                                                      agencies often raise sensitive and
organizations, specialty home health                                                                         through the management of the home
                                                      complex legal and managerial issues.6
agencies, small independent home                                                                             health agency to every employee at all
                                                      However, the OIG wishes to offer what
health agencies, and other types of                                                                          levels in the organization.
                                                      it believes is critical guidance for
home health agency organizations and                                                                           At a minimum, comprehensive
                                                      providers who are sincerely attempting
systems. However, elements of this                                                                           compliance programs should include
                                                      to comply with the relevant health care
guidance can be used by all home health                                                                      the following seven elements:
                                                      statutes and regulations.
agencies, regardless of size, location, or
corporate structure, to establish an                  II. Compliance Program Elements                          (1) The development and distribution
effective compliance program.                                                                                of written standards of conduct, as well
                                                         The elements proposed by these                      as written policies and procedures that
Similarly, a hospital or corporation that             guidelines are similar to those of the
owns a home health agency or provides                                                                        promote the home health agency’s
                                                      Compliance Program Guidance for                        commitment to compliance (e.g., by
home health services may incorporate                  Hospitals that was published by the OIG
these elements into its system-wide                                                                          including adherence to the compliance
                                                      in February 1998, the clinical laboratory              program as an element in evaluating
compliance or managerial structure. We                compliance program guidance
recognize that some home health                                                                              managers and employees) and address
                                                      published by the OIG in February 1997,7                specific areas of potential fraud, such as
agencies may not be able to adopt                     and our corporate integrity agreements.8
certain elements to the same                                                                                 claims development and submission
                                                      The elements represent a guide that can                processes, cost reporting, and financial
comprehensive degree that others with                 be tailored to fit the needs and financial
more extensive resources may achieve.                                                                        relationships with physicians and other
                                                      realities of a particular home health                  health care professionals and entities;
This guidance represents the OIG’s                    agency.9 The OIG is cognizant that, with
suggestions on how a home health                                                                               (2) The designation of a compliance
agency can best establish internal                      6 Nothing stated within this document should be      officer and other appropriate bodies,
controls and monitoring to correct and                substituted for, or used in lieu of, competent legal   e.g., a corporate compliance committee,
prevent fraudulent activities. By no                  advice from counsel.                                   charged with the responsibility for
means should the contents of this                       7 See 63 FR. 8987 (1998) for the Compliance
                                                                                                             operating and monitoring the
guidance be viewed as an exclusive                    Program Guidance for Hospitals. See 62 FR 9435
                                                      (1997) for the clinical laboratory compliance
                                                                                                             compliance program, and who reports
discussion of the advisable elements of               program guidance. These documents are also
a compliance program.                                 located on the Internet at http://www.dhhs.gov/        independent home health agencies with limited
   The OIG believes that input and                    progorg/oig.                                           financial resources and staff, as well as the larger
                                                        8 Corporate integrity agreements are executed as     multi-home health agency organizations and
support by representatives of the major                                                                      networks with extensive financial resources and
                                                      part of a civil settlement between the health care
home health trade associations is                     provider and the Government to resolve a case          staff.
critical to the development and success               based on allegations of health care fraud or abuse.       10 See United States Sentencing Commission

                                                      These OIG-imposed programs are in effect for a         Guidelines, Guidelines Manual, 8A1.2, Application
has violated the Act, but who voluntarily discloses   period of 3 to 5 years and require many of the         Note 3(k). The Federal Sentencing Guidelines are
the violation to the Government, in certain           elements included in this compliance program           detailed policies and practices for the Federal
circumstances will be subject to not less than        guidance.                                              criminal justice system that prescribe the
double, as opposed to treble, damages. See 31           9 This is particularly true in the context of the    appropriate sanctions for offenders convicted of
U.S.C. 3729(a).                                       home health industry, which includes many small        Federal crimes.
                                Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                                         42413

directly to the CEO and the governing                   individuals who are affected by the                       handbook delineating or expanding
body; 11                                                particular policy at issue, including the                 upon these standards of conduct should
   (3) The development and                              home health agency’s agents and                           be regularly updated as applicable
implementation of regular, effective                    independent contractors.13 In addition                    statutes, regulations, and Federal health
education and training programs for all                 to these general corporate policies, it                   care program requirements are modified
affected employees;                                     may be necessary to implement                             and/or clarified.16
   (4) The creation and maintenance of                  individual policies for independent                         When they first begin working for the
a process, such as a hotline or other                   components of the home health agency.                     home health agency, and each time new
reporting system, to receive complaints,                                                                          standards of conduct are issued,
                                                        1. Standards of Conduct
and the adoption of procedures to                                                                                 employees should be asked to sign a
protect the anonymity of complainants                      Home health agencies should develop                    statement certifying that they have
and to protect whistleblowers from                      standards of conduct for all affected                     received, read, and understood the
retaliation;                                            employees that include a clearly                          standards of conduct. An employee’s
   (5) The development of a system to                   delineated commitment to compliance                       certification should be retained by the
respond to allegations of improper/                     by the home health agency’s senior                        home health agency in the employee’s
illegal activities and the enforcement of               management 14 and its divisions,                          personnel file, and available for review
appropriate disciplinary action against                 including affiliated providers operating                  by the compliance officer.
employees who have violated internal                    under the home health agency’s 15
                                                        control and other health care                             2. Risk Areas
compliance policies, applicable statutes,
regulations, or Federal health care                     professionals (e.g., physical therapists,                    The OIG believes that a home health
program requirements; 12                                occupational therapists, speech                           agency’s written policies and
   (6) The use of audits and/or other                   therapists, and medical social workers).                  procedures should take into
evaluation techniques to monitor                        Standards should articulate the home                      consideration the particular statutes,
compliance and assist in the reduction                  health agency’s commitment to comply                      rules, and program instructions that
of identified problem areas;                            with all Federal and State standards,                     apply to each function or department of
   (7) The investigation and remediation                with an emphasis on preventing fraud                      the home health agency.17
of identified systemic problems and the                 and abuse. They should explicitly state                   Consequently, we recommend that the
development of policies addressing the                  the organization’s mission, goals, and                    individual policies and procedures be
non-employment or retention of                          ethical requirements of compliance and                    coordinated with the appropriate
sanctioned individuals.                                 reflect a carefully crafted, clear                        training and educational programs with
                                                        expression of expectations for all home                   an emphasis on areas of special concern
A. Written Policies and Procedures                      health agency governing body members,                     that have been identified by the OIG
  Every compliance program should                       officers, managers, employees,                            through its investigative and audit
require the development and                             clinicians, and, where appropriate,                       functions.18 Some of the special areas of
distribution of written compliance                      contractors and other agents. Standards                   OIG concern include: 19
policies, standards, and practices that                 should be distributed to, and
identify specific areas of risk and                     comprehensible by, all affected                              16 The OIG recognizes that not all standards,

vulnerability to the home health agency.                employees (e.g., translated into other                    policies, and procedures need to be communicated
                                                        languages when necessary and written                      to all employees. However, the OIG believes that
These policies, standards, and practices                                                                          the bulk of the standards that relate to complying
should be developed under the                           at appropriate reading levels). Standards                 with fraud and abuse laws and other ethical areas
direction and supervision of, or subject                should not only address compliance                        should be addressed and made part of all affected
to review by, the compliance officer and                with statutes and regulations, but                        employees’ training. The home health agency must
                                                        should also set forth broad principles                    decide which additional educational programs
compliance committee and, at a                                                                                    should be limited to the different levels of
minimum, should be provided to all                      that guide employees in conducting                        employees, based on job functions and areas of
                                                        business professionally and properly.                     responsibility.
   11 The integral functions of a compliance officer    Further, to assist in ensuring that                          17 A home health agency can conduct focus

and a corporate compliance committee in                 employees continuously meet the                           groups composed of managers from various
implementing an effective compliance program are        expected high standards set forth in the                  departments to solicit their concerns and ideas
discussed throughout this compliance program                                                                      about compliance risks that may be incorporated
guidance. However, the OIG recognizes that a home
                                                        code of conduct, any employee                             into the home health agency’s policies and
health agency may tailor the structure of those                                                                   procedures. Such employee participation in the
                                                          13 According to the Federal Sentencing                  development of the home health agency’s
positions in consideration of the size and design of
the home health agency, while endeavoring to            Guidelines, an organization must have established         compliance program can enhance its credibility and
address and accomplish all of the underlying            compliance standards and procedures to be                 foster employee acceptance of the program.
objectives of a compliance officer and a corporate      followed by its employees and other agents in order          18 The OIG periodically issues Special Fraud

compliance committee.                                   to receive sentencing credit for an ‘‘effective’’         Alerts setting forth activities believed to raise legal
   12 The term ‘‘Federal health care programs’’ is      compliance program. The Federal Sentencing                and enforcement issues. Home health agency
applied in this document as defined in 42 U.S.C.        Guidelines define ‘‘agent’’ as ‘‘any individual,          compliance programs should require that the legal
1320a–7b(f), which includes any plan or program         including a director, an officer, an employee, or an      staff, compliance officer, or other appropriate
that provides health benefits, whether directly,        independent contractor, authorized to act on behalf       personnel carefully consider any and all Special
through insurance, or otherwise, which is funded        of the organization.’’ See United States Sentencing       Fraud Alerts issued by the OIG that relate to home
directly, in whole or in part, by the United States     Commission Guidelines, Guidelines Manual, 8A1.2,          health agencies. Moreover, the compliance
Government (i.e., via programs such as Medicare,        Application Note 3.                                       programs should address the ramifications of failing
                                                          14 The OIG strongly encourages high-level               to cease and correct any conduct criticized in such
Federal Employees’ Compensation Act, Black Lund,
or the Longshore and Harbor Worker’s                    involvement by the home health agency’s governing         a special Fraud Alert, if applicable to home health
Compensation Act) or any State health plan (e.g.,       body, chief executive officer, chief operating officer,   agencies, or to take reasonable action to prevent
Medicaid, or a program receiving funds from block       general counsel, and chief financial officer, as well     such conduct from reoccurring in the future. If
grants for social services or child health services).   as other medical or clinical personnel, as                appropriate, a home health agency should take the
Also, for the purposes of this document, the term       appropriate, in the development of standards of           steps described in section G.2. regarding
‘‘Federal health care program requirements’’ refers     conduct. Such involvement should help                     investigations, reporting, and correction of
to the statutes, regulations, rules, requirements,      communicate a strong and explicit statement of            identified problems.
directive, and instructions governing Medicare,         compliance goals and standards.                              19 The OIG’s work plan is currently available on

Medicaid, and all other Federal health care               15 E.g., pharmacies, other home health agencies,        the Internet at http://www.dhhs.gov/progorg/oig.
programs.                                               and supplemental staffing entities.                                                                    Continued
42414                           Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

  • Billing for items or services not                    physicians, hospitals, patients, etc.) that                 • Billing for services provided by
actually rendered; 20                                    may violate the anti-kickback statute or                  unqualified or unlicensed clinical
  • Billing for medically unnecessary                    other similar Federal or State statute or                 personnel;
services; 21                                             regulation; 25                                              • False dating of amendments to
  • Duplicate billing; 22                                  • Joint ventures between parties, one                   nursing notes;
  • False cost reports; 23                               of whom can refer Medicare or                               • Falsified plans of care; 33
  • Credit balances—failure to                           Medicaid business to the other; 26                          • Untimely and/or forged physician
refund; 24                                                 • Stark physician self-referral law; 27                 certifications on plans of care;
  • Home health agency incentives to                       • Billing for services provided to                        • Forged beneficiary signatures on
actual or potential referral sources (e.g.,              patients who are not confined to their                    visit slips/logs that verify services were
                                                         residence (or ‘‘homebound’’); 28                          performed;
The OIG Work Plan details the various projects of          • Billing for visits to patients who do                   • Improper patient solicitation
the Office of Audit Services, Office of Evaluation
and Inspections, Office of Investigations, and Office    not require a qualifying service; 29                      activities and high-pressure marketing
of Counsel to the Inspector General that are planned       • Over-utilization 30 and under-                        of uncovered or unnecessary services; 34
to be addressed during each Fiscal Year.                 utilization; 31                                             • Inadequate management and
   20 Billing for services not actually rendered
                                                           • Knowing billing for inadequate or                     oversight of subcontracted services,
involves submitting a claim that represents the
provider performed a service all or part of which
                                                         substandard care;                                         which results in improper billing;
was simply not performed. This form of billing             • Insufficient documentation to                           • Discriminatory admission and
fraud occurs in many health care entities, including     evidence that services were performed                     discharge of patients;
home health agencies, hospitals, laboratories, and       and to support reimbursement;                               • Billing for unallowable costs
nursing homes, and represents a significant part of
the OIG’s investigative caseload.
                                                           • Billing for unallowable costs of                      associated with the acquisition and sale
   21 Billing for medically unnecessary services         home health coordination; 32                              of home health agencies;
involves knowingly seeking reimbursement for a                                                                       • Compensation programs that offer
service that is not warranted by the patient’s current      25 Examples of arrangements that may run afoul
                                                                                                                   incentives for number of visits
and documented medical condition. See 42 U.S.C.          of the anti-kickback statute include practices in
§ 1395y(a)(1)(A) (‘‘no payment may be made under
                                                                                                                   performed and revenue generated; 35
                                                         which a home health agency pays a fee to a
part A or part B [of Medicare] for any expenses          physician for each plan of care certified, provides
                                                                                                                     • Improper influence over referrals by
incurred for items or services which * * * are not       items or services for free or below fair market value     hospitals that own home health
reasonable and necessary for the diagnosis or            to beneficiaries of Federal health care programs,         agencies;
treatment of illness or injury or to improve the
functioning of the malformed body member’’).
                                                         provides nursing or administrative services for free        • Patient abandonment in violation of
                                                         or below fair market value to physicians, hospitals
Upon submission of an HCFA claim form (whether           and other potential referral sources, and provides
                                                                                                                   applicable statutes, regulations, and
paper or electronic), a home health agency certifies     salaries to a referring physician for services either     Federal health care program
that the services provided and billed were               not rendered or in excess of fair market value for        requirements; 36
medically necessary for the health of the                services rendered. See 42 U.S.C. 1320a–7b; 60 FR
beneficiary, and were rendered in accordance with        40, 847 (1995). See also discussion in section II.A.4.
orders prescribed by the beneficiary’s physician.                                                                  performing this service may be allowable under
                                                         and accompanying notes.                                   Medicare, the costs of services performed by home
See also discussion in section II.A.3.a and                 26 Equally troubling to the OIG is the proliferation
accompanying notes.                                                                                                health agency personnel that constitute patient
   22 Duplicate billing occurs when the home health      of business arrangements that may violate the anti-       solicitation or activities duplicative of an
                                                         kickback statute. Such arrangements are generally         institution’s discharge planning responsibilities are
agency submits more than one claim for the same
service or the bill is submitted to more than one        established between those in a position to refer          not allowable. These non-reimbursable activities, as
primary payor at the same time. Although duplicate       business, such as physicians, and those providing         well as the allowable costs of performing home
billing can occur due to simple error, knowing,          items or services for which a Federal health care         health coordination, are more specifically described
duplicate billing—which is sometimes evidenced           program pays. Sometimes established as ‘‘joint            in the Provider Reimbursement Manual, Part I,
by systematic or repeated double billing—can create      ventures,’’ these arrangements may take a variety of      § 2113. Further, the OIG’s Home Health Fraud Alert
liability under criminal, civil, or administrative       forms. The OIG currently has a number of                  of June 1995 specifically warned home health
law, particularly if any overpayment is not              investigations and audits underway that focus on          agencies that providing hospitals with discharge
promptly refunded.                                       such areas of concern.                                    planners, home health coordinators, or home care
                                                            27 Under the Stark physician self-referral law, if
   23 The submission of false cost reports is usually                                                              liaisons in order to induce referrals can constitute
limited to certain Medicare Part A providers, such       a physician (or an immediate family member of             a kickback.
as home health agencies, hospitals, and skilled          such physician) has a financial relationship with a          33 See discussion in section II.A.3.c. and
nursing facilities, which are reimbursed in part on      home health agency, the physician may not make            accompanying notes.
the basis of their self-reported operating costs. The    a referral to the home health agency for the                 34 Home health agencies should not utilize
OIG is aware of practices in which home health           furnishing of home health services for which              prohibited or inappropriate conduct (e.g., offer free
agencies maintain records that indicate salaries are     payment may be made under the Federal health              gifts or services to patients) to carry out their
paid to employees that do not exist, lump                care programs. See 42 U.S.C. 1395nn.                      initiatives and activities designed to maximize
nonpatient-related expenses with patient-related            28 See discussion in section II.A.3.b. and
                                                                                                                   business growth and patient retention. Also, any
ones in an attempt to bury the non-reimbursable          accompanying notes.                                       marketing information offered by home health
costs, bill Medicare for patient visits with no             29 See discussion in section II.A.3.d. and
                                                                                                                   agencies should be clear, correct, non-deceptive,
records to substantiate that the services were           accompanying notes.                                       and fully informative.
performed, inappropriately shift certain costs to           30 Physicians often rely on home health agencies          35 The current nature of the home health benefit
cost centers that are below their reimbursement cap,
                                                         to determine the need, type, and frequency of home        (i.e., no limits on reimbursable home health visits
shift non-Medicare related costs to Medicare cost
                                                         health services provided to a beneficiary. Since          in a cost-reimbursed system) and customary
centers, and fail to properly disclose related
                                                         Medicare does not limit the number of visits or the       business pressures create risks associated with
organizations (see 42 CFR 413.17(b)), e.g., entities
that provide leased space or equipment, financial        length of home health coverage for an individual          incentives (e.g., payments benefits, etc.) for
management consulting, and direct patient services       beneficiary, home health agencies have incentives         productivity and volume of services. Such risks
and supplies.                                            to furnish as many visits as possible, which can          include over-utilization and billing for services not
   24 A credit balance is an improper or excess          lead to over-utilization. Although it is a physician      provided in order to meet internal goals and budget
                                                         that determines medical necessity, a home health          benchmarks imposed by home health agency
payment made to a health care provider as a result
of patient billing or claims processing errors.          agency has an obligation to ensure that services it       management.
Examples of Medicare credit balances include             provides are medically necessary, and should                 36 Under the Medicare conditions of

instances where a provider is: (1) Paid twice for the    consult with physicians as appropriate for the            participation, a home health agency has the duty to
same service either by Medicare or by Medicare and       requisite assurances.                                     fully inform a beneficiary in advance of termination
                                                            31 In other words, knowing denial of needed care
another insurer; or (2) paid for services planned but                                                              of services when further care or treatment is
not performed or for non-covered services. See           in order to keep costs low.                               necessary. See generally 42 U.S.C. 395bbb.
Home Health Agency Manual § 489. Home health                32 Home health coordination is intended to             Moreover, State licensure statutes and regulations
agencies should institute procedures to provide for      manage and facilitate the transfer of patients from       may stipulate additional requirements (e.g., the
the timely and accurate reporting of Medicare and        a hospital or skilled nursing facility to the care of     minimum time period of advance notice allowed)
other Federal health care program credit balances.       a home health agency. Although some costs of              that home health agencies must follow when
                               Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                          42415

   • Knowing misuse of provider                         damages and/or criminal fines and            accurate billing should be available to
certification numbers, which results in                 penalties. These corporate integrity         billing staff;
improper billing;                                       agreements have provided the OIG with           • Provide that the compensation for
   • Duplication of services provided by                a mechanism to specify practices that        billing department personnel and billing
assisted living facilities, hospitals,                  help ensure compliance with applicable       consultants should not offer any
clinics, physicians, and other home                     Federal and State statutes, and Federal      financial incentive to submit claims
health agencies;                                        health care program requirements. The        regardless of whether they meet
   • Knowing or reckless disregard of                   following recommendations include a          applicable coverage criteria for
willing and able caregivers when                        number of provisions from various            reimbursement or accurately represent
providing home health services; 37                      corporate integrity agreements. As           the services rendered; and
   • Failure to adhere to home health                   previously discussed, each home health          • Establish and maintain a process for
agency licensing requirements and                       agency should develop its own specific       pre-and post-submission review of
Medicare conditions of participation; 38                policies tailored to fit its individual      claims 40 to ensure that claims
and                                                     needs.                                       submitted for reimbursement accurately
   • Knowing failure to return                                                                       represent medically necessary services
                                                           With respect to the reimbursement
overpayments made by Federal health                                                                  actually provided, supported by
                                                        process, a home health agency’s written
care programs. A home health agency’s                                                                sufficient documentation, and in
                                                        policies and procedures should reflect
prior history of noncompliance with                                                                  conformity with any applicable
                                                        and reinforce current Federal health
applicable statutes, regulations, and                                                                coverage criteria for reimbursement.41
                                                        care requirements regarding the
Federal health care program                                                                             The written policies and procedures
                                                        submission of claims and Medicare cost
requirements may indicate additional                                                                 concerning proper billing should reflect
                                                        reports. The policies must create a
types of risk areas where the home                                                                   the current reimbursement principles
                                                        mechanism for the billing or
health agency may be vulnerable and                                                                  set forth in applicable regulations 42 and
                                                        reimbursement staff to communicate
that may require necessary policy                                                                    should be developed in tandem with
                                                        effectively and accurately with the
measures to be taken to prevent                                                                      private payor and organizational
                                                        clinical staff. Policies and procedures
avoidable recurrence.39 Additional risk                                                              standards. Particular attention should be
                                                        should:
areas should be assessed by home health                                                              paid to issues associated with medical
                                                           • Provide for sufficient and timely
agencies as well and incorporated into                                                               necessity, homebound status of
                                                        documentation of all nursing and other
the written policies and procedures and                                                              beneficiary, physician certification of
                                                        home health services, including
training elements developed as part of                                                               plan of care, and qualifying services to
                                                        subcontracted services, prior to billing
their compliance programs.                                                                           establish coverage eligibility.43
                                                        to ensure that only accurate and
3. Claim Development and Submission                     properly documented services are                a. Medical necessity—Reasonable and
Process                                                 billed;                                      necessary services. A home health
                                                           • Emphasize that a claim should be        agency’s compliance program should
   Of the risk areas identified above,                                                               provide that claims should only be
those pertaining to the claim                           submitted only when appropriate
development and submission process                      documentation supports the claim and            40 The OIG recommends that, at a minimum, a
have been the frequent subject of                       only when such documentation is              valid statistical sample of claims should be
administrative recoveries, as well as                   maintained, appropriately organized in       reviewed before and after billing is submitted.
investigations and prosecutions under                   a legible form, and available for audit         41 E.g., plan of care is dated and signed by a

                                                        and review. The documentation should         physician, beneficiary is homebound, skilled
the civil False Claims Act and criminal                                                              service is required, finite and predictable endpoint
statutes. Settlement of these cases often               record the activity leading to the record    exists and is documented for skilled nursing
has required the defendants to execute                  entry, the identity of the individual        services is excess of 35 hours of per week, etc. 42
corporate integrity agreements, in                      providing the service, and any               U.S.C. 1395m(x); 42 CFR 424.22; Home Health
                                                        information needed to support medical        Agency Manual § 204.
addition to paying significant civil                                                                    42 The official reimbursement coverage guidelines
                                                        necessity and other applicable
                                                                                                     for participating providers in the Medicare program
terminating the services provided to a patient. The     reimbursement coverage criteria. The         are promulgated by HCFA in the Provider
risk of abandonment may arise when a home health        home health agency should consult with       Reimbursement Manual and the Home Health
agency attempts to keep costs of providing services     its medical director(s), clinical staff,     Agency Manual. Generally, to qualify for the home
low.                                                                                                 health benefit covered by Medicare, individuals
   37 According to Medicare reimbursement
                                                        and/or governing body to establish other
                                                                                                     must be confined to their residences (be
principles, where a family member or other person       appropriate documentation guidelines;        ‘‘homebound’’), be under a physician’s care, and
is or will be providing services that adequately meet      • Indicate that the diagnosis and         need part-time or intermittent skilled nursing care
a patient’s needs, it is not reasonable and necessary   procedure codes for home health              and/or physical or speech therapy. See Home
for a home health agency to furnish such services.                                                   Health Agency Manual § 204 entitled ‘‘Conditions
Therefore, if a home health agency has first hand
                                                        services reported on the reimbursement
                                                                                                     the Patient Must Need to Qualify for Coverage of
knowledge of an able and willing person to provide      claim should be based on the patient’s       Home Health Services.’’
the services being rendered by the home health          medical record and other                        43 The OIG undertaken numerous audits,
agency, or a patient (or patient’s family) objects to   documentation, as well as comply with        investigations, inspections, and national
a home health agency providing such services, the                                                    enforcement initiatives aimed at reducing potential
home health agency should neither provide nor bill
                                                        all applicable official coding rules and
                                                                                                     and actual fraud, abuse, and waste. For example,
for such services. See Home Health Agency Manual        guidelines. Any Health Care Financing        OIG audit reports, which have focused on issues
§ 203.2.                                                Administration Common Procedure              such as home health agency billing for services not
   38 See 42 U.S.C. 1395bbb for the Medicare
                                                        Coding System (HCPCS), International         authorized by a physician, not medically necessary,
conditions of participation that apply to home          Classification of Disease (ICD), Home        not eligible for reimbursement, not rendered, and
health agencies.                                                                                     for unallowable general and administrative costs,
   39 ‘‘Recurrence of misconduct similar to that        Health Agency’s Current Procedural           continue to reveal abusive, wasteful or fraudulent
which an organization has previously committed          Terminology (CPT), or revenue code (or       behavior by some home health agencies. Our report
casts doubt on whether it took all reasonable steps     successor codes) used by the billing staff   on the practices of problem providers, our
to prevent such misconduct’’ and is a significant       should accurately describe the service       Operation Restore Trust Audit Report of July 1997,
factor in the assessment of whether a compliance                                                     and our special fraud alert on home health fraud,
program is effective. See United States Sentencing
                                                        that was ordered by the physician and        illustrate how certain home health agency billing
Commission Guidelines, Guidelines Manual. 8A1.2,        performed by the home health agency.         and business practices may result in fraudulent and
Application Note 3(k)(iii).                             The documentation necessary for              abusive behavior.
42416                           Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

submitted for services that the home                    they perform to determine, in                               beneficiary should be completed prior
health agency has reason to believe are                 consultation with a physician, whether                      to billing Medicare for home health
medically necessary and were ordered                    patients’ medical conditions justify the                    services provided to the beneficiary.51
by a physician 44 or other appropriately                number of visits provided and billed.                       As with other conditions for Medicare
licensed individual.                                    Home health agencies may choose to                          coverage, a physician must certify that
   As a preliminary matter, the OIG                     incorporate this clinical review function                   the beneficiary was confined to the
recognizes that licensed health care                    into pre-existing quality assurance                         home at the time when services were
professionals must be able to order any                 mechanisms or any other quality                             provided.52
services that are appropriate for the                   assurance processes that may become                            One means by which home health
treatment of their patients. However,                   part of the conditions of participation                     agencies may verify the homebound
Medicare and other Government and                       for home health agencies.                                   status of a Medicare beneficiary is the
private health care plans will only pay                   Additionally, home health agencies                        inclusion of written prompts on nursing
for those services otherwise covered that               should implement policies and                               note forms. These prompts can direct
meet appropriate medical necessity                      procedures to verify that beneficiaries                     the home health agency’s clinicians
standards (i.e., in the case of Medicare,               have actually received the appropriate                      (e.g., registered nurse or licensed
‘‘reasonable and necessary’’ services).                 level and number of services billed. The                    practical nurse) to adequately assess and
Providers may not bill for services that                OIG believes that a home health agency                      document the homebound status of a
do not meet the applicable standards.45                 has a duty to sufficiently monitor                          Medicare beneficiary based upon
The home health agency is in a unique                   services its employees provide to                           clinical expertise, consultation with the
position to deliver this information to                 patients for confirmation that all                          beneficiary, and orders of the attending
the health care professionals on its staff              services were provided as claimed.48 To                     physician.53 Carefully designed prompts
and to the physicians who refer                         satisfy such an objective, home health                      on nursing note forms may help ensure
patients. Upon request, a home health                   agencies may choose to periodically                         the complete and appropriate
agency must be able to provide                          contact (i.e., via mail, telephone, or in                   documentation necessary to substantiate
documentation, such as physician                        person) a random sample of patients                         the homebound status of a Medicare
orders and other patient medical                        and interview the clinical staff involved.                  beneficiary for reimbursement purposes.
records, to support the medical                           b. Homebound beneficiaries. For a                            Home health agencies can further
necessity of a service that the home                    home health agency to receive                               ensure compliance with the homebound
health agency has provided.46 The                       reimbursement for home health services                      requirement by distributing written
compliance officer should ensure that a                 under either Medicare Part A or Part B,                     notices to Medicare beneficiaries,
clear, comprehensive summary of the                     the beneficiary must be ‘‘confined to the                   reminding them that they must satisfy
‘‘medical necessity’’ definitions and                   home.’’ 49 Home health agencies should                      the regulatory requirements for
applicable rules of the various                         create oversight mechanisms to ensure                       homebound status to be eligible for
Government and private plans is                         that the homebound status of a                              Medicare coverage. Since the Medicare
prepared, disseminated, and explained                   Medicare beneficiary is verified and the                    conditions of participation require home
to appropriate home health agency                       specific factors qualifying the patient as                  health agencies to give all beneficiaries
personnel.47                                            homebound are properly documented.50                        a written notice of their legal rights
   We recommend that home health                        Any determinative assessment of the                         before furnishing them with home
agencies formulate policies and                         homebound status of a Medicare                              health services, providers can include
procedures that include periodic                                                                                    reminders of homebound requirements
clinical reviews, both prior and                           48 A home health agency may consider including           in these notices.54
subsequent to billing for services, as a                attestations on nursing note forms to be signed by             c. Physician certification of the plan
                                                        caregivers for the purpose of reinforcing the               of care. A home health agency should
means of verifying that patients are                    importance of accurate documentation of services
receiving only medically necessary                      performed and billed.                                       take all reasonable steps to ensure that
services. As part of such reviews, home                    49 Title XVIII of the Social Security Act,               claims for home health services are
health agencies should examine the                      § 1861(m), 42 U.S.C. 1395×(m), authorizes the               ordered and authorized by a
frequency and duration of the services                  provision of home health services to patients who           physician.55 The home health agency’s
                                                        are confined to their home (or homebound). In
                                                        general, a patient will be considered to be                    51 If a question is raised as to whether a patient
  44 For Medicare reimbursement purposes, a plan
                                                        homebound if the patient has a condition due to an
for furnishing home health services must be             illness or injury that restricts the patient’s ability to   is confined to the home, the home health agency
certified by a physician who is a doctor of             leave his or her place of residence except with the         will be requested to furnish its Medicare fiscal
medicine, osteopathy, or podiatric medicine, and        aid of supportive devices such as crutches, canes,          intermediary with the information necessary to
who does not have a significant ownership interest      wheelchairs, and walkers, or the assistance of              establish that the patient is homebound. Home
in, or a significant financial or contractual           another person or if leaving home is medically              Health Agency Manual § 204.1.
relationship with, the home health agency. See 42       contraindicated. The condition of these patients
                                                                                                                       52 42 CFR 424.22(a)(1)(ii).

CFR 424.22.                                             should be such that there exists a normal inability            53 These prompts can be in the form of directions
  45 Civil monetary penalties and administrative                                                                    (e.g., ‘‘Consult with the patient and physician as to
                                                        to leave the home and, consequently, leaving home
sanctions, as well as remedies available under          would require a considerable and taxing effort. See         the patient’s ability to leave the home.’’) or
criminal and civil law, including the civil False       Home Health Agency Manual § 204.1. HHS plans to             questions (e.g., ‘‘Does the patient ever leave the
Claims Act, may be imposed against any person           submit a report to Congress by October 1, 1998,             home, and if so, where does the patient go and how
who submits a claim for services ‘‘that [the] person    recommending criteria that should be applied, and           often? Does the patient require supportive devices
knows or should know are not medically                  the method of applying such criteria, in the                to leave the home?’’).
necessary.’’ See 42 U.S.C. 1320a–7a(a).                 determination of whether an individual is                      54 See 42 CFR 484.10(a)(1).
  46 Medicare fiscal intermediaries and carriers        homebound for Medicare reimbursement purposes.                 55 As a condition for payment of home health
have the authority to require home health agencies,     See Balanced Budget Act of 1997, Pub. L. 105–33,            services by Medicare, a physician must certify that
which furnish items or services under the program,      § 4614. Any new criteria developed by HHS should            a plan for furnishing the services has been
to submit documentation that substantiates services     be incorporated into the public applicable policies         established and is periodically reviewed by a
are actually provided and medically necessary. See      and procedures of a home health agency.                     physician. 42 CFR 424.22(a) and (b); Home Health
Medicare Intermediary Manual § 3116.1.B.                   50 Recent audits, investigations, and studies of         Agency Manual § 204.2 If employees of a home
  47 As it applies to private plan requirements, this   home health agencies have concluded that many               health agency believe that services ordered by a
compliance function may be delegated to                 home health agencies have billed Medicare for               physician are excessive or otherwise inappropriate,
supervisory personnel with suitable oversight by        services provided to beneficiaries who are not              the home health agency cannot avoid liability for
the compliance officer.                                 homebound. See note 43.                                     filing improper claims simply because a physician
                                 Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                                        42417

written policies and procedures should                      • The home health agency properly                      for a home health agency to enlist
require, at a minimum, that:                              documents any assessment it has made                     measures to prevent billing for
   • Before the home health agency bills                  of a beneficiary’s home health needs,                    dependent services after any qualifying
for services provided to a beneficiary,                   which may be used by a physician in                      service has ceased.64 Any procedures or
the plan of care 56 must be established,                  developing and authorizing a plan of                     practices that a home health agency may
dated, and signed by a qualified                          care; and                                                implement in response to this identified
physician; 57                                               • The home health agency reminds or                    risk will most likely correspond with
   • The plan of care must be                             educates physicians, as appropriate,                     other policy measures taken by the
periodically reviewed by a physician in                   about the scope of their duty to certify                 home health agency to ensure medical
order for the beneficiary to continue to                  patients for home health services to be                  necessity.
qualify for Medicare coverage of home                     reimbursed by Medicare.61                                   e. Cost reports. In addition to
health benefits; 58                                         d. Lack of qualifying service. In                      submitting claims for specific services,
   • Home health services are only                        addition to addressing the issues                        home health agencies submit annual
billed if the home health agency is                       associated with other reimbursement                      cost reports to Medicare for
acting upon a physician’s certification                   coverage criteria, a home health                         reimbursement of administrative,
attesting that the services provided to a                 agency’s policies and procedures should                  overhead, and other general costs. With
patient are medically necessary and                       ensure that all claims satisfy the                       regard to cost report issues, the written
meet the requirements for home health                     requisite need of a qualifying service.62                policies should include procedures that
services to be covered by Medicare; 59                    Since reimbursement coverage of                          seek to ensure full compliance with
   • When consulted, the home health                      services by other disciplines may                        applicable statutes, regulations, and
agency assists the physician in                           depend on the need and the provision                     Federal health care program
determining the medical necessity of                      of the qualifying service, 63 it is critical             requirements. Among other things, the
home health services and formulating                                                                               home health agency’s procedures
                                                          Report (A–04–96–02121) entitled, ‘‘Results of the        should ensure that:
an appropriate and certified plan of                      Operation Restore Trust Audit of Medicare Home
care; 60                                                  Health Services in California, Illinois, New York,
                                                                                                                      • Costs are not claimed unless they
                                                          and Texas’’ (hereinafter ‘‘OIG ORT Report’’), the        are reimbursable, reasonable, and are
has ordered the services. Medicare, through               OIG concluded that physicians did not always             based on appropriate and accurate
certifications that are incorporated into the claim       review or actively participate in developing the         documentation;
                                                          plans of care they signed, especially for less
forms (paper or electronic) and ratified by home
                                                          complex cases. The report found that physicians
                                                                                                                      • Allocations of costs to various cost
health agencies upon submission, imposes a duty
to investigate the truth, accuracy, and completeness      relied heavily on home health agencies to make           centers are accurately made and
of claims before they are submitted. To illustrate,       determinations as to homebound status, as well as        supportable by verifiable and auditable
the HCFA–1500 claim form states that the person           the need, type, and frequency of home health             data;
submitting the form certifies ‘‘the services shown        services without physician participation. Since
                                                          such lack of physician involvement may likely
                                                                                                                      • Unallowable costs are not claimed
on the[e] form were medically necessary for the
health of the patient.’’                                  result in non-covered services, it is advisable that     for reimbursement; 65
   56 The Home Health Agency Manual uses the term         home health agencies undertake all reasonable               • Accounts containing both allowable
‘‘plan of care’’ to refer to the medical treatment plan   efforts to procure sufficient physician consultation     and unallowable costs are analyzed to
                                                          to ensure that an appropriate plan of care is            determine the unallowable amount that
established by the treating physician with the
                                                          established for medically necessary services.
assistance of the home health care nurse. Among              61 This can be accomplished through provider          should not be claimed for
other things, the plan of care must contain all
pertinent diagnoses, including the patient’s mental       education and liaison activities with physicians and     reimbursement;
status, the types of services, supplies, and              physician support personnel. See Provider                   • Costs are properly classified; 66
equipment required, the frequency of visits to be         Reimbursement Manual § 2113.4                               • Medicare fiscal intermediary prior
                                                             62 Among other criteria, to receive Medicare
made, prognosis, rehabilitation potential, functional                                                              year audit adjustments are implemented
limitations, activities permitted, nutritional            reimbursement for home health services, a
                                                          beneficiary must have a need for skilled nursing         and are either not claimed for
requirements, and all medications and treatments.
See Home Health Agency Manual § 204.2. The plan           care on an intermittent basis, physical therapy,         reimbursement or if claimed for
of care is presented in writing on the HCFA–485           speech-language pathology services, or a continuing      reimbursement, are clearly identified as
form entitled ‘‘Home Health Certification and Plan        need for occupational therapy. See Home Health           protested amounts on the cost report;
                                                          Agency Manual § 205. To qualify as skilled nursing
of Treatment.’’
                                                          services, the services must require the skills of a
                                                                                                                      • All related parties are identified on
   57 The home health agency should employ
                                                          registered nurse or a licensed practical (vocational)    the cost report and all related party
reasonable measures to verify that the physician is
appropriately licensed and no adverse actions, such
                                                          nurse under the supervision of a registered nurse,       charges are reduced to the cost to the
                                                          must be reasonable and necessary to the treatment        related party;
as criminal conviction, debarment, or an exclusion,
                                                          of the patient’s illness or injury, and must be
have been taken against the physician.
                                                          intermittent (as discussed in Home Health Agency
                                                                                                                      • Allocations from a home health
   58 The plan of care must be reviewed and signed
                                                          Manual, § 206.7). Where a service can be safely and      agency chain’s home office cost
by the physician who established the plan of care,        effectively performed (or self-administered) by the      statement to individual home health
in consultation with the home health agency               average nonmedical person without the direct
professional personnel, at least every 62 days. Each                                                               agency cost reports are accurately made
                                                          supervision of a licensed nurse, the service cannot
review of a patient’s plan of care must contain the       be regarded as a skilled service even if a skilled
signature of the physician and the date of review.        nurse actually provides the service. Home Health
                                                                                                                     64 Recent audits conducted by the OIG have

42 C.F.R. § § 424.22(a), (b); Home Health Agency          Agency Manual § 205.1 A.2.                               revealed several instances where home health
Manual § 204.2.F.                                            63 If an eligible beneficiary requires a qualifying   agencies have submitted substantial numbers of
   59 The physician must certify that: (1) The patient
                                                          service, Medicare also covers visits by home health      claims for home health aide visits to beneficiaries
is confined to the home; (2) the patient is in need       aides, medical social workers, and occupational          that did not require any skilled qualifying service.
of intermittent skilled nursing care, physical            therapists, as well as medical supplies needed and       See OIG ORT Report.
therapy and/or speech therapy or continues to need        used. Hands-on personal care services, such as             65 For administrative, overhead, and other general

occupational therapy; (3) the patient is under the        bathing, feeding, and assistance with medications,       costs to be allowable under Medicare, regulations
care of the physician while the services are or were      are services customarily performed by home health        require that they be reasonable, necessary for the
furnished; and (4) a plan of care has been                aides in conjunction with a qualifying service.          maintenance of the health care entity, and related
established and is periodically reviewed by the           However, a beneficiary who needs only this type of       to patient care. 42 CFR 413.9; see also Provider
physician. See Home Health Agency Manual § 204.5          personal or custodial care does not qualify for the      Reimbursement Manual, Chapter 21.
and the HCFA–485 form.                                    home health benefit. Consequently, with no                 66 E.g., time must be accurately split between
   60 In practice, home health agencies often accept      allowable skilled services, the home health aide         reimbursable home health coordination and non-
the responsibility of assessing a beneficiary’s status    services are also not medically necessary or             reimbursable patient solicitation activities (see note
and completing the HCFA–485 plan of care form for         reasonable. See Home Health Agency Manual                32), and between visits to Medicare beneficiaries
approval by a physician. In the July 1997 OIG Audit       § 206.2.                                                 and visits to non-Medicare beneficiaries.
42418                           Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

and supportable by verifiable and                      visit to determine the extent and type of                 State anti-kickback statutes, as well as
auditable data;                                        the services that the facility is                         the Stark physician self-referral law.70
   • Management fees are reasonable                    contractually obligated to provide to the                 Such policies should provide that:
and necessary, and do not include                      resident; and                                                • All of the home health agency’s
unallowable costs, such as certain                        • Provide home health services to the                  contracts and arrangements with actual
acquisition costs associated with the                  resident only to the extent that they are                 or potential referral sources are
purchase of a home health agency (e.g.,                appropriate and not duplicative of those                  reviewed by counsel and comply with
good will, non-competes);                              services provided or required to be                       all applicable statutes and
   • Any return of overpayments,                       provided by the facility.68                               regulations; 71
including those resulting from an                         The OIG strongly recommends that a                        • The home health agency does not
internal review or audit, are                          home health agency contact the                            submit or cause to be submitted to the
appropriately reflected in cost reports,               appropriate State licensing authority if                  Federal health care programs claims for
i.e., a repayment of an overpayment                    there is reason to believe a State-                       patients who were referred to the home
received in a prior year may necessitate               licensed facility is failing to provide                   health agency pursuant to contracts or
changes or amendments to the cost                      care that is required by its licensure,                   financial arrangements that were
report applicable to the prior year; and               regardless of whether claims for services                 designed to induce such referrals in
   • Procedures are in place and                       provided to residents of such facilities                  violation of the anti-kickback statute,
documented for notifying promptly the                  would otherwise be reimbursable by                        Stark physician self-referral law, or
Medicare fiscal intermediary (or any                   Medicare or another Federal health care                   similar Federal or State statute or
other applicable payor, e.g., TRICARE                  program.                                                  regulation; and
(formerly CHAMPUS) and Medicaid) in                       g. Prospective payment system. The                        • The home health agency does not
writing of errors discovered after the                 Balanced Budget Act of 1997 provides                      offer or provide gifts, free services, or
submission of the home health agency                   for the establishment of a prospective                    other incentives to patients, relatives of
cost report, and, where applicable, after              payment system (PPS) for all costs of                     patients, physicians, hospitals,
the submission of a home health agency                 home health services. Upon the                            contractors, assisted living facilities, or
chain’s home office cost statement.                    commencement of such system, all                          other potential referral sources for the
   f. Services provided to patients who                services covered and paid on a                            purpose of inducing referrals in
reside in assisted living facilities. Home             reasonable cost basis under the                           violation of the anti-kickback statute,
health agencies should formulate                       Medicare home health benefit,                             Stark physician self-referral law, or
effective policies and procedures to                   including medical supplies, will be paid                  similar Federal or State statute or
evaluate home health services provided                 for on the basis of a computed                            regulation.72
to individuals who reside in assisted                  prospective payment amount.69 Once                           Further, the policies and procedures
living facilities (also called residential             HHS institutes the PPS, home health                       should specifically reference and take
care facilities, personal care homes,                  agencies should guard against new types                   into account the OIG’s safe harbor
group homes, etc.) to determine whether                of fraud, abuse, and waste that might                     regulations, which clarify those
the services are appropriate for                       arise in such a reimbursement system.                     payment practices that would be
reimbursement.67 To avoid the                          Potential risks may include failure to                    immune from prosecution under the
submission of improper claims for                      report or mischaracterization of a                        anti-kickback statute.73
services to such individuals, the                      change in patient conditions used to
adoption of the following measures is                  establish the PPS charge, denial of                       5. Retention of Records
advisable upon a request to provide                    medically necessary care resulting in                        Home health agency compliance
home health services to a resident of an               under-utilization, and duplicate billing                  programs should provide for the
assisted living facility:                              of charges subsumed within the PPS                        implementation of a records system.
   • Contact the appropriate State                     payment. Accordingly, home health                         This system should establish policies
licensing authority to determine any                   agencies should prepare to implement                      and procedures regarding the creation,
applicable State licensure and service                 policies and procedures to properly                       distribution, retention, storage, retrieval,
requirements for the specific facility                 address any potential risk areas                          and destruction of documents.74 The
involved;                                              associated with the PPS.                                  three categories of documents
   • Make reasonable attempts to verify                                                                          developed under this system should
the specific license, if any, held by the              4. Anti-Kickback and Self-Referral
                                                       Concerns                                                  include: (1) All records and
facility, e.g., view the license certificate                                                                     documentation (e.g., clinical and
hanging on the facility’s wall;                           The home health agency should have
   • Request to view the service                       policies and procedures in place with                        70 Towards this end, the home health agency’s in-
agreement between the facility and the                 respect to compliance with Federal and                    house counsel or compliance officer should, among
resident during the initial assessment                                                                           other things, obtain copies of all relevant OIG
                                                         68 Audits and investigations by both the OIG and        regulations, special fraud alerts, and advisory
  67 Individuals                                       Medicare fiscal intermediaries have revealed              opinions (these documents are located on the
                   who reside in assisted living
                                                       several instances where home health aids of home          Internet at http://www.dhhs.gov/progorg/oig), and
facilities may be eligible for Medicare coverage of
                                                       health agencies have provided personal care               ensure that the home health agency’s policies
home health services. See Home Health Agency
                                                       services, such as meal preparation, room cleaning,        reflect the guidance provided by the OIG.
Manual § 204.1B. However, if it is determined that                                                                  71 In addition to the anti-kickback statutes and the
the services furnished by the home health agency       and bathing, to Medicare beneficiaries who reside
are duplicative of services furnished by an assisted   in assisted living facilities required by State license   Stark physician self-referral law provisions, 42 CFR
living facility, such as when provision of such care   to provide such services. In addition to the              424.22 expressly prohibits a home health agency
is required of the facility under State licensure      customary liability assumed by a home health              from providing services certified or recertified by
requirements, claims for such services are             agency for submitting claims for such duplicative         any physician who has a significant ownership
unallowable under 42 U.S.C. 1395y(a)(1)(A) and         and unallowable services, a home health agency            interest in, or a significant financial or contractual
should not be submitted. Services to people who        may violate the anti-kickback statute for providing       relationship with, that home health agency.
                                                                                                                    72 See 42 U.S.C. 1320a–7b(b); 60 FR 40847 (1995).
already have access to appropriate care from a         these services at no charge to an assisted living
willing caregiver would not be considered              facility, an entity that is responsible to perform the       73 See 42 CFR 1001.952.

reasonable and necessary to the treatment of the       services and is a potential source of referrals.             74 This records system should be tailored to fit the

individual’s illness or injury. See Home Health          69 See Balanced Budget Act of 1997, Pub. L. 105–        individual needs and financial resources of the
Agency Manual § 203.2. See also note 37.               33, § 4603.                                               home health agency.
                                Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                                      42419

medical records, and billing and claims                 the compliance officer or home health                     CEO, and compliance committee (if
documentation) required either by                       agency management should include in                       applicable) on the progress of
Federal or State law for participation in               the home health agency’s compliance                       implementation, and assisting these
Federal health care programs 75 or any                  program a policy that managers and                        components in establishing methods to
other applicable Federal and State laws                 supervisors will be sanctioned for                        improve the home health agency’s
and regulations (e.g., document                         failing to adequately instruct their                      efficiency and quality of services, and to
retention requirements to maintain State                subordinates or for failing to detect                     reduce the home health agency’s
licensure); (2) all records,                            noncompliance with applicable policies                    vulnerability to fraud, abuse, and waste;
documentation, and verifiable and                       and legal requirements, where                                • Periodically revising the program in
auditable data that support the home                    reasonable diligence on the part of the                   light of changes in the organization’s
health agency’s Medicare cost report,                   manager or supervisor would have led                      needs, and in the law and policies and
and, where applicable, the home health                  to the discovery of any problems or                       procedures of Government and private
agency chain’s home office cost                         violations and given the home health                      payor health plans;
statement; and (3) all records necessary                agency the opportunity to correct them                       • Reviewing employees’ certifications
to protect the integrity of the home                    earlier.                                                  that they have received, read, and
health agency’s compliance process and                                                                            understood the standards of conduct;
                                                        B. Designation of a Compliance Officer
confirm the effectiveness of the                                                                                     • Developing, coordinating, and
                                                        and a Compliance Committee
program. The third category includes:                                                                             participating in a multifaceted
documentation that employees were                       1. Compliance Officer                                     educational and training program that
adequately trained; reports from the                       Every home health agency should                        focuses on the elements of the
home health agency’s hotline, including                 designate a compliance officer to serve                   compliance program, and seeks to
the nature and results of any                           as the focal point for compliance                         ensure that all relevant employees and
investigation that was conducted;                       activities. This responsibility may be the                management are knowledgeable of, and
documentation of corrective action,                     individual’s sole duty or added to other                  comply with, pertinent Federal and
including disciplinary action taken and                 management responsibilities, depending                    State standards;
policy improvements introduced, in                      upon the size and resources of the home                      • Ensuring that independent
response to any internal investigation or               health agency and the complexity of the                   contractors and agents who furnish
audit; modifications to the compliance                  task. Designating a compliance officer                    nursing or other health care services to
program; self-disclosures; and the                      with the appropriate authority is critical                the clients of the home health agency,
results of the home health agency’s                     to the success of the program,                            or billing services to the home health
auditing and monitoring efforts.76                      necessitating the appointment of a high-                  agency, are aware of the requirements of
6. Compliance as an Element of a                        level official in the home health agency                  the home health agency’s compliance
Performance Plan                                        with direct access to the home health                     program with respect to coverage,
                                                        agency’s president or CEO, governing                      billing, and marketing, among other
   Compliance programs should require
                                                        body, all other senior management, and                    things;
that the promotion of, and adherence to,
                                                        legal counsel.77 The officer should have                     • Coordinating personnel issues with
the elements of the compliance program
                                                        sufficient funding and staff to perform                   the home health agency’s Human
be a factor in evaluating the
                                                        his or her responsibilities fully.                        Resources/Personnel office (or its
performance of all employees, who
                                                        Coordination and communication are                        equivalent) to ensure that the National
should be periodically trained in new
                                                        the key functions of the compliance                       Practitioner Data Bank 79 and
compliance policies and procedures. In
                                                        officer with regard to planning,                          Cumulative Sanction Report 80 have
addition, all managers and supervisors
                                                        implementing, and monitoring the                          been checked with respect to all
involved in the claims and cost report
                                                        compliance program.                                       employees, medical staff, and
development and submission processes                       The compliance officer’s primary
should:                                                                                                           independent contractors (as
                                                        responsibilities should include:
   • Discuss with all supervised                           • Overseeing and monitoring the
                                                                                                                  appropriate); 81
employees and relevant contractors the                  implementation of the compliance                             • Assisting the home health agency’s
compliance policies and legal                           program; 78                                               financial management in coordinating
requirements pertinent to their function;                  • Reporting on a regular basis to the                  internal compliance review and
   • Inform all supervised personnel                    home health agency’s governing body,
that strict compliance with these                                                                                    79 The National Practitioner Data Bank is a data

policies and requirements is a condition                  77 The  OIG believes that it is not advisable for the
                                                                                                                  base that contains information about medical
of employment; and                                      compliance function to be subordinate to the home         malpractice payments, sanctions by boards of
   • Disclose to all supervised personnel               health agency’s general counsel, or comptroller or        medical examiners or State licensing boards,
                                                        similar home health agency financial officer. Free        adverse clinical privilege actions, and adverse
that the home health agency will take                                                                             professional society membership actions. Health
                                                        standing compliance functions help to ensure
disciplinary action up to and including                 independent and objective legal reviews and               care entities can have access to this data base to
termination for violation of these                      financial analyses of the institution’s compliance        seek information about their own medical or
policies or requirements.                               efforts and activities. By separating the compliance      clinical staff, as well as prospective employees.
                                                                                                                     80 The Cumulative Sanction Report is an OIG-
   In addition to making performance of                 function from the key management positions of
                                                        general counsel or chief financial officer (where the     produced report available on the Internet at
these duties an element in evaluations,                 size and structure of the home health agency make         http://www.dhhs.gov/progorg/oig. It is updated on
                                                        this a feasible option), a system of checks and           a regular basis to reflect the status of health care
  75 For example, as a condition of participation,
                                                        balances is established to more effectively achieve       providers who have been excluded from
Medicare requires that home health agencies retain      the goals of the compliance program.                      participation in the Medicare and Medicaid
records regarding their claims to Medicare for a           78 For multi-home health agency organizations or       programs. In addition, the General Services
minimum of 5 years after the month the cost report      hospital-owned home health agencies, the OIG              Administration maintains a monthly listing of
to which the records apply is filed with the fiscal     encourages coordination with each home health             debarred contractors on the Internet at http://
intermediary. See 42 CFR 484.48(a).                     agency owned by the corporation or hospital               www.arnet.gov/epls.
  76 The creation and retention of such documents       through the use of a headquarter’s compliance                81 The compliance officer may also have to ensure

and reports may raise a variety of legal issues, such   officer, communicating with parallel positions in         that the criminal backgrounds of employees have
as patient privacy and confidentiality. These issues    each facility, regional office, or business line, as      been checked depending upon State requirements
are best discussed with legal counsel.                  appropriate.                                              or home health agency policy. See note 105.
42420                          Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

monitoring activities, including annual                compliance program.84 When                                  • Determining the appropriate
or periodic reviews of departments;                    developing an appropriate team of                        strategy/approach to promote
   • Independently investigating and                   people to serve as the home health                       compliance with the program and
acting on matters related to compliance,               agency’s compliance committee,                           detection of any potential violations,
including the flexibility to design and                including the compliance officer, a                      such as through hotlines and other fraud
coordinate internal investigations (e.g.,              home health agency should consider a                     reporting mechanisms;
responding to reports of problems or                   variety of skills and personality traits                    • Developing a system to solicit,
suspected violations) and any resulting                that are expected from those in such                     evaluate, and respond to complaints and
corrective action (e.g., making necessary              positions.85 Once a home health agency                   problems; and
improvements to home health agency                     chooses the people that will accept the                     • Monitoring internal and external
policies and practices, taking                         responsibilities vested in members of                    audits and investigations for the
appropriate disciplinary action, etc.)                 the compliance committee, the home                       purpose of identifying troublesome
with all home health agency                            health agency needs to train these                       issues and deficient areas experienced
departments, subcontracted providers,                  individuals on the policies and                          by the home health agency, and
and health care professionals under the                procedures of the compliance program,                    implementing corrective and preventive
home health agency’s control, 82 and                   as well as how to discharge their duties.                action.
any other agents if appropriate;                       The committee’s functions should                            The committee may also address other
   • Developing policies and programs                  include:                                                 functions as the compliance concept
that encourage managers and employees                    • Analyzing the organization,86                        becomes part of the overall home health
to report suspected fraud and other                    regulatory environment, the legal                        agency operating structure and daily
improprieties without fear of retaliation;             requirements with which it must                          routine.
and                                                    comply,87 and specific risk areas;
                                                         • Assessing existing policies and                      C. Conducting Effective Training and
   • Continuing the momentum of the                    procedures that address these risk areas                 Education
compliance program and the                             for possible incorporation into the
accomplishment of its objectives long                                                                              The proper education and training of
                                                       compliance program;
after the initial years of                                                                                      corporate officers, managers, employees,
                                                         • Working with appropriate home
implementation.83                                                                                               nurses, and other health care
                                                       health agency departments to develop
   The compliance officer must have the                                                                         professionals, and the continual
                                                       standards of conduct and policies and
authority to review all documents and                                                                           retraining of current personnel at all
                                                       procedures to promote compliance with
other information that are relevant to                                                                          levels, are significant elements of an
                                                       legal and ethical requirements;
compliance activities, including, but not                • Recommending and monitoring, in                      effective compliance program. As part of
limited to, patient records, billing                   conjunction with the relevant                            their compliance programs, home health
records, and records concerning the                    departments, the development of                          agencies should require personnel to
marketing efforts of the facility and the              internal systems and controls to carry                   attend specific training on a periodic
home health agency’s arrangements                      out the organization’s standards,                        basis, including appropriate training in
with other parties, including employees,               policies, and procedures as part of its                  Federal and State statutes, regulations,
professionals on staff, relevant                       daily operations; 88                                     and guidelines, and the policies of
independent contractors, suppliers,                                                                             private payors, and training in corporate
agents, supplemental staffing entities,                   84 The compliance committee benefits from             ethics, which emphasizes the
and physicians. This policy enables the                having the perspectives of individuals with varying      organization’s commitment to
compliance officer to review contracts                 responsibilities in the organization, such as            compliance with these legal
                                                       operations, finance, audit, human resources, and         requirements and policies.89
and obligations (seeking the advice of                 clinical management (e.g., Medical Director), as
legal counsel, where appropriate) that                 well as employees and managers of key operating             These training programs should
may contain referral and payment                       units. These individuals should have the requisite       include sessions highlighting the
provisions that could violate the anti-                seniority and comprehensive experience within            organization’s compliance program,
                                                       their respective departments to implement any
kickback statute, as well as the Stark                 necessary changes to home health agency policies
                                                                                                                summarizing fraud and abuse laws,
physician self-referral prohibition and                and procedures as recommended by the committee.          Federal health care program
other legal or regulatory requirements.                A compliance committee for a home health agency          requirements, claim development and
                                                       that is part of a hospital might benefit from the        submission processes, patient rights,
2. Compliance Committee                                participation of officials from other departments in
                                                                                                                and marketing practices that reflect
                                                       the hospital, such as the accounting and billing
  The OIG recommends that a                            departments.                                             current legal and program standards.
compliance committee be established to                    85 A health care provider should expect its           The organization must take steps to
advise the compliance officer and assist               compliance committee members and compliance              communicate effectively its standards
                                                       officer to demonstrate high integrity, good              and procedures to all affected
in the implementation of the                           judgment, assertiveness, and an approachable
                                                       demeanor, while eliciting the respect and trust of       employees, physicians, independent
  82 E.g., physical therapists, occupational           employees of the home health agency and having           contractors, and other significant agents,
therapists, speech therapists, medical social          significant professional experience working with         e.g., by requiring participation in
workers, and supplemental staffing entities.           billing, clinical records, documentation, and            training programs and disseminating
  83 Periodic on-site visits of home agency            auditing principles.
                                                          86 E.g., understanding the practical implications     publications that explain specific
operations, bulletins with compliance updates and
reminders, distribution of audiotapes or videotapes    of the fraud and abuse provisions of the Balanced
on different risk areas, lectures at management and    Budget Act of 1997, Pub. L. 105–33, and the Health       and communication between those employees
employee meetings, circulation of recent health care   Insurance Portability and Accountability Act of          responsible for compliance at the corporation or
article covering fraud and abuse, and innovative       1996, Pub. L. 104–191.                                   hospital and those responsible for compliance at the
changes to compliance training are various                87 This includes, but is not limited to, compliance   home agencies.
examples of approaches and techniques the              with the Medicare conditions of participation. See         89 Specific compliance training should

compliance officer can employ for the purpose of       42 U.S.C. 1395bbb.                                       complement any ‘‘in-service’’ training sessions that
ensuring continued interest in the compliance             88 With respect to multi-home health agency           a home health agency may regularly schedule to
program and the home health agency’s commitment        organizations and hospital-owned home health             reinforce adherence to policies and practices of the
to its policies and principles.                        agencies, this may include fostering coordination        particular home health agency.
                                 Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                                       42421

requirements in a practical manner.90                     home health agency staff should include                 employment and that failure to comply
Managers of specific departments or                       such topics as:                                         with training requirements should result
groups can assist in identifying areas                       • Government and private payor                       in disciplinary action, including
that require training and in carrying out                 reimbursement principles;                               possible termination, when such failure
such training.91 Training instructors                        • General prohibitions on paying or                  is serious. Adherence to the provisions
may come from outside or inside the                       receiving remuneration to induce                        of the compliance program, such as
organization, but must be qualified to                    referrals;                                              training requirements, should be a factor
present the subject matter involved and                      • Improper alterations to clinical                   in the annual evaluation of each
experienced enough in the issues                          records;                                                employee. The home health agency
presented to adequately field questions                      • Providing home health services                     should retain adequate records of its
and coordinate discussions among those                    with proper authorization;                              training of employees, including
being trained. New employees should be                       • Proper documentation of services                   attendance logs and material distributed
trained early in their employment.92                      rendered, including the correct                         at training sessions.
Training programs and materials should                    application of official ICD and CPT                        Finally, the OIG recommends that
be designed to take into account the                      coding rules and guidelines;                            home health agency compliance
skills, experience, and knowledge of the                     • Patient rights and patient                         programs address the need for periodic
individual trainees. The compliance                       education;                                              professional education courses that may
                                                             • Compliance with Medicare                           be required by statute and regulation for
officer should document any formal
                                                          conditions of participation; and                        certain home health agency employees.
training undertaken by the home health
                                                             • Duty to report misconduct.
agency as part of the compliance                                                                                  D. Developing Effective Lines of
                                                             Clarifying and emphasizing these
program.                                                                                                          Communication
                                                          areas of concern through training and
   A variety of teaching methods, such                    educational programs are particularly                   1. Access to the Compliance Officer
as interactive training, and training in                  relevant to a home health agency’s
several different languages, particularly                                                                            An open line of communication
                                                          marketing and financial personnel, in
where a home health agency has a                                                                                  between the compliance officer and
                                                          that the pressure to meet business goals
culturally diverse staff, should be                                                                               home health agency employees is
                                                          may render these employees vulnerable
implemented so that all affected                                                                                  equally important to the successful
                                                          to engaging in prohibited practices.
employees are knowledgeable of the                                                                                implementation of a compliance
                                                             The OIG suggests that all relevant
                                                                                                                  program and the reduction of any
institution’s standards of conduct and                    levels of personnel be made part of
                                                                                                                  potential for fraud, abuse, and waste.
procedures for alerting senior                            various educational and training
                                                                                                                  Written confidentiality and non-
management to problems and                                programs of the home health agency.94
                                                                                                                  retaliation policies should be developed
concerns.93 Targeted training should be                   Employees should be required to have a
                                                                                                                  and distributed to all employees to
provided to corporate officers,                           minimum number of educational hours
                                                                                                                  encourage communication and the
managers, and other employees whose                       per year, as appropriate, as part of their
                                                                                                                  reporting of incidents of potential
actions affect the accuracy of the claims                 employment responsibilities.95 For
                                                                                                                  fraud.97 The compliance committee
submitted to the Government, such as                      example, for certain employees involved
                                                                                                                  should also develop independent
employees involved in the billing, cost                   in the billing functions, periodic
                                                                                                                  reporting paths for an employee to
reporting, and marketing processes.                       training in applicable reimbursement
                                                                                                                  report fraud, waste, or abuse so that
Given the complexity and                                  coverage and documentation of clinical
                                                                                                                  employees can feel comfortable
interdependent relationships of many                      records should be required.96 In home
                                                                                                                  reporting outside the normal chain of
departments, proper coordination and                      health agencies with high employee
                                                                                                                  command and supervisors or other
supervision of this process by the                        turnover, periodic training updates are
                                                                                                                  personnel cannot divert such reports.98
compliance officer is important. In                       critical.
                                                             The OIG recommends that attendance                      The OIG encourages the establishment
addition to specific training in the risk                                                                         of a procedure so that home health
areas identified in section II.A.2, above,                and participation in training programs
                                                          be made a condition of continued                        agency personnel may seek clarification
primary training for appropriate                                                                                  from the compliance officer or members
corporate officers, managers, and other                     94 In addition, where feasible, the OIG               of the compliance committee in the
                                                          recommends that a home health agency afford             event of any confusion or question with
   90 Some publications, such as OIG’s Special Fraud
                                                          outside contractors the opportunity to participate in   regard to a home health agency policy,
Alerts, audit and inspection reports, and advisory        the home health agency’s compliance training and        practice, or procedure. Questions and
opinions, as well as the annual OIG work plan, are        educational programs, or develop their own
readily available from the OIG and could be the           programs that complement the home health
                                                                                                                  responses should be documented and
basis for standards, educational courses, and             agency’s standards of conduct, compliance               dated and, if appropriate, shared with
programs for appropriate home health agency               requirements, and other rules and practices.            other staff so that standards, policies,
employees.                                                  95 Currently, the OIG is monitoring a significant
                                                                                                                  practices, and procedures can be
   91 Significant variations in the functions and
                                                          number of corporate integrity agreements that           updated and improved to reflect any
responsibilities of different departments or groups       require many of these training elements. The OIG
may create the need for training materials that are       usually requires a minimum of 1 to 3 hours              necessary changes or clarifications. The
tailored to compliance concerns associated with           annually for basic training in compliance areas.
particular operations and duties.                         Additional training is required for specialty fields      97 The OIG believes that whistleblowers should be
   92 Certain positions, such as those that involve the   such as billing and marketing.                          protected against retaliation, a concept embodied in
billing of home health services, create a greater           96 Appropriate billing depends upon the quality       the provisions of the False Claims Act. See 31
organizational legal exposure, and therefore require      and completeness of the clinical documentation.         U.S.C. 3730(h). In many causes, employees sue their
specialized training. One recommendation would            Therefore, OIG believes that active clinical staff      employers under the False Claims Act’s qui tam
be for a home health agency to attempt to fill such       participation in educational programs focusing on       provisions out of frustration because of the
positions with individuals who have the                   billing and documentation should be emphasized          company’s failure to take action when a
appropriate educational background and training.          by the home health agency. Clinical staff should be     questionable, fraudulent, or abusive situation was
   93 Post-training tests can be used to assess the       reminded that thorough, precise, and timely             brought to the attention of senior corporate officials.
success of training provided and employee                 documentation of services provided services the           98 Home health agencies can also consider

comprehension of the home health agency’s                 interests of the patient, as well as the interests of   rewarding employees for appropriate use of
policies and procedures.                                  the billing department.                                 established systems.
42422                          Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

compliance officer may want to solicit                    The OIG recognizes that assertions of          It is vital to publish and disseminate
employee input in developing these                     fraud and abuse by employees who may           the range of disciplinary standards for
communication and reporting systems.                   have participated in illegal conduct or        improper conduct and to educate
                                                       committed other malfeasance raise              officers and other home health agency
2. Hotlines and Other Forms of                         numerous complex legal and                     employees regarding these standards.
Communication                                          management issues that should be               The consequences of noncompliance
   The OIG encourages the use of                       examined on a case-by-case basis. The          should be consistently applied and
hotlines,99 e-mails, written memoranda,                compliance officer should work closely         enforced, in order for the disciplinary
newsletters, suggestion boxes, and other               with legal counsel, who can provide            policy to have the required deterrent
forms of information exchange to                       guidance regarding such issues.                effect. All levels of employees should be
maintain these open lines of                                                                          potentially subject to the same types of
                                                       E. Enforcing Standards Through Well-           disciplinary action for the commission
communication.100 If the home health                   Publicized Disciplinary Guidelines
agency establishes a hotline, the                                                                     of similar offenses. The commitment to
telephone number should be made                        1. Discipline Policy and Actions               compliance applies to all personnel
readily available to all employees and                                                                levels within a home health agency. The
                                                          An effective compliance program             OIG believes that corporate officers,
independent contractors, possibly by
                                                       should include guidance regarding              managers, supervisors, clinical staff, and
circulating the number on wallet cards
                                                       disciplinary action for corporate              other health care professionals should
or conspicuously posting the telephone
                                                       officers, managers, employees, and other       be held accountable for failing to
number in common work areas.101
                                                       health care professionals who have             comply with, or for the foreseeable
Employees should be permitted to
                                                       failed to comply with the home health          failure of their subordinates to adhere
report matters on an anonymous basis.
                                                       agency’s standards of conduct, policies        to, the applicable standards, laws, and
Matters reported through the hotline or
                                                       and procedures, Federal health care            procedures.
other communication sources that
suggest substantial violations of                      program requirements, or Federal and           2. New Employee Policy
compliance policies, Federal health care               State laws, or those who have otherwise
                                                       engaged in wrongdoing, which have the             For all new employees who have
program requirements, regulations, or                                                                 discretionary authority to make
statutes should be documented and                      potential to impair the home health
                                                       agency’s status as a reliable, honest, and     decisions that may involve compliance
investigated promptly to determine their                                                              with the law or compliance oversight,
veracity. A log should be maintained by                trustworthy health care provider.
                                                                                                      home health agencies should conduct a
the compliance officer that records such                  The OIG believes that the compliance        reasonable and prudent background
calls, including the nature of any                     program should include a written policy        investigation, including a reference
investigation and its results.102 Such                 statement setting forth the degrees of         check,104 as part of every such
information should be included in                      disciplinary actions that may be               employment application. The
reports to the governing body, the CEO,                imposed upon corporate officers,               application should specifically require
and compliance committee.103 Further,                  managers, employees, and other health          the applicant to disclose any criminal
while the home health agency should                    care professionals for failing to comply       conviction,105 as defined by 42 U.S.C.
always strive to maintain the                          with the home health agency’s                  1320a–7(i), or exclusion action.
confidentiality of an employee’s                       standards and policies and applicable          Pursuant to the compliance program,
identity, it should also explicitly                    statutes and regulations. Intentional or       home health agency policies should
communicate that there may be a point                  reckless noncompliance should subject          prohibit the employment of individuals
where the individual’s identity may                    transgressors to significant sanctions.        who have been recently convicted of a
become known or may have to be                         Such sanctions could range from oral           criminal offense related to health
revealed in certain instances.                         warnings to suspension, termination, or        care 106 or who are listed as debarred,
                                                       financial penalties, as appropriate. Each      excluded, or otherwise ineligible for
   99 The OIG recognizes that it may not be            situation must be considered on a case-        participation in Federal health care
financially feasible for a smaller home health         by-case basis to determine the                 programs.107 In addition, pending the
agency to maintain a telephone hotline dedicated to    appropriate sanction. The written
receiving calls about compliance issues.
   100 In addition to methods of communication
                                                       standards of conduct should elaborate            104 See  note 80.
used by current employees, an effective employee       on the procedures for handling                   105 Slightly over a quarter of the States require,
exit interview program could be designed to solicit    disciplinary problems and those who            and several home health agencies voluntarily
                                                                                                      conduct, criminal background checks for
information from departing employees regarding         will be responsible for taking                 prospective employees of home health agencies.
potential misconduct and suspected violations go       appropriate action. Some disciplinary          Identification of a criminal background of an
home health agency policy and procedures.
   101 Home health agencies should also post in a      actions can be handled by department           applicant, who may have been recently convicted
                                                       or agency managers, while others may           of serious crimes that relate to the proposed
prominent, available area the HHS–OIG Hotline                                                         employment duties, could be grounds for denying
telephone number, 1–800–447–8477 (1–800–HHS–           have to be resolved by a senior home           employment. Further, criminal background
TIPS), in addition to any company hotline number       health agency administrator.                   screening may deter those individuals with
that may be posted.                                                                                   criminal intent from entering the field of home
   102 To efficiently and accurately fulfill such an
                                                       Disciplinary action may be appropriate
                                                                                                      health. See United States General Accounting
obligation, the home health agency should create an    where a responsible employee’s failure         Office’s September 27, 1996, Letter Report entitled
intake form for all compliance issues identified       to detect a violation is attributable to his   ‘‘Long-Term Care: Some States Apply Criminal
through reporting mechanisms. The form could           or her negligence or reckless conduct.         Background Checks to Home Care Workers,’’ GAO/
include information concerning the date that the       Personnel should be advised by the             PEMD–96–5.
potential problem was reported, the internal                                                             106 Since providers of home health services have
investigative methods utilized, the results of the     home health agency that disciplinary           frequent, relatively unsupervised access to
investigation, the corrective action implemented,      action will be taken on a fair and             potentially vulnerable people and their property, a
the disciplinary measures imposed, and any             equitable basis. Managers and                  home health agency should also strictly scrutinize
identified overpayments and monies returned.           supervisors should be made aware that          whether it should employ individuals who have
   103 Information obtained over the hotline may                                                      been convicted of crimes of neglect, violence, or
provide valuable insight into management practices
                                                       they have a responsibility to discipline       financial misconduct.
and operations, whether reported problems are          employees in an appropriate and                   107 Likewise, home health agency compliance

actual or perceived.                                   consistent manner.                             programs should establish standards prohibiting the
                                Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                                  42423

resolution of any criminal charges or                    minimum, these audits should be                       home health agency has established for
proposed debarment or exclusion, the                     designed to address the home health                   payments that it may owe to Medicare,
OIG recommends that an individual                        agency’s compliance with laws                         Medicaid, or other Federal health care
who is the subject of such actions                       governing kickback arrangements, the                  programs. Any reserves discovered that
should be removed from direct                            physician self-referral prohibition, claim            include funds that should have been
responsibility for or involvement in any                 development and submission,                           paid to such programs, or funds set
Federal health care program.108 With                     reimbursement, cost reporting, and                    aside for potential reimbursement of a
regard to current employees or                           marketing. The audits and reviews                     known overpayment to the home health
independent contractors, if resolution of                should inquire into the home health                   agency, should be paid promptly,
the matter results in conviction,                        agency’s compliance with the Medicare                 regardless of whether demand has been
debarment, or exclusion, the home                        conditions of participation and the                   made for such payment.
health agency should terminate its                       specific rules and policies that have                   An effective compliance program
employment or other contract                             been the focus of particular attention on             should also incorporate periodic (at
arrangement with the individual or                       the part of the Medicare fiscal                       least annual) reviews of whether the
contractor.                                              intermediaries or carriers, and law                   program’s compliance elements have
                                                         enforcement, as evidenced by                          been satisfied, e.g., whether there has
F. Auditing and Monitoring                                                                                     been appropriate dissemination of the
                                                         educational and other communications
   An ongoing evaluation process is                      from OIG Special Fraud Alerts, OIG                    program’s standards, training, ongoing
critical to a successful compliance                      audits and evaluations, and law                       educational programs, and disciplinary
program. The OIG believes that an                        enforcement’s initiatives.110 In addition,            actions, among other elements.113 This
effective program should incorporate                     the home health agency should focus on                process will verify actual conformance
thorough monitoring of its                               any areas of concern that are specific to             by all departments with the compliance
implementation and regular reporting to                  the individual home health agency and                 program and may identify the necessity
senior home health agency or corporate                   have been identified by any entity,                   for improvements to be made to the
officers.109 Compliance reports created                  whether Federal, State, or internal.                  compliance program, as well as the
by this ongoing monitoring, including                       Monitoring techniques may include                  home health agency’s operations. Such
reports of suspected noncompliance,                      sampling protocols that permit the                    reviews could support a determination
should be maintained by the                              compliance officer to identify and                    that appropriate records have been
compliance officer and shared with the                   review variations from an established                 created and maintained to document the
home health agency’s senior                              baseline.111 Significant variations from              implementation of an effective
management and the compliance                            the baseline should trigger a reasonable              program.114 However, when monitoring
committee. The extent and frequency of                   inquiry to determine the cause of the                 discloses that deviations were not
the audit function may vary depending                    deviation. If the inquiry determines that             detected in a timely manner due to
on factors such as the size and available                the deviation occurred for legitimate,                program deficiencies, proper
resources, prior history of                              explainable reasons, the compliance                   modifications must be implemented.
noncompliance, and the risk factors that                 officer and home health agency                        Such evaluations, when developed with
a particular home health agency                          management may want to limit any                      the support of management, can help
confronts.                                               corrective action or take no action. If it            ensure compliance with the home
   Although many monitoring                              is determined that the deviation was                  health agency’s policies and procedures.
techniques are available, one effective                  caused by improper procedures,                          As part of the review process, the
tool to promote and ensure compliance                    misunderstanding of rules, including                  compliance officer or reviewers should
is the performance of regular, periodic                  fraud and systemic problems, the home                 consider techniques such as:
compliance audits by internal or                         health agency should take prompt steps                  • Visits and interviews of patients at
external auditors who have expertise in                  to correct the problem. Any                           their homes;
Federal and State health care statutes,                  overpayments discovered as a result of                  • Analysis of utilization patterns;
regulations, and Federal health care                     such deviations should be returned                      • Testing clinical and billing staff on
program requirements. The audits                         promptly to the affected payor, with                  their knowledge of reimbursement
should focus on the home health                          appropriate documentation and a                       coverage criteria and official coding
agency’s programs or divisions,                          sufficiently detailed explanation of the              guidelines (e.g., present hypothetical
including external relationships with                    reason for the refund.112                             scenarios of situations experienced in
third-party contractors, specifically                       Monitoring techniques may also                     daily practice and assess responses);
those with substantive exposure to                       include a review of any reserves the                    • Assessment of existing
Government enforcement actions. At a                                                                           relationships with physicians, hospitals,
                                                           110 See  also section II.A.2.                       and other potential referral sources;
execution of contracts with companies that have            111 The  OIG recommends that when a compliance        • Unannounced mock surveys,
been recently convicted of a criminal offense            program is established in a home health agency, the   audits, and investigations;
related to health care or that are listed by a Federal   compliance officer, with the assistance of              • Reevaluation of deficiencies cited
agency as debarred, excluded, or otherwise               department managers, should take a ‘‘snapshot’’ of
ineligible for participation in Federal health care
                                                                                                               in past surveys for Medicare conditions
                                                         their operations from a compliance perspective.
programs. See note 80.                                   This assessment can be undertaken by outside          of participation;
  108 Prospective employees who have been                consultants, law or accounting firms, or internal
officially reinstated into the Medicare and Medicaid     staff, with authoritative knowledge of health care       113 One way to assess the knowledge, awareness,

programs by the OIG may be considered for                compliance requirements. This ‘‘snapshot,’’ often     and perceptions of the home health agency’s
employment upon proof of such reinstatement.             used as part of benchmarking analyses, becomes a      employees is through the use of a validated survey
  109 Even when a home health agency or group of         baseline for the compliance officer and other         instrument (e.g., employee questionnaires,
home health agencies is owned by a larger corporate      managers to judge the home health agency’s            interviews, or focus groups).
entity, the regular auditing and monitoring of the       progress in reducing or eliminating potential areas      114 Such records should include, but not be

compliance activities of an individual home health       of vulnerability.                                     limited to, logs of hotline calls, logs of training
agency must be a key feature in any annual review.         112 In addition, when appropriate, as referenced    attendees, training agenda materials, and
Appropriate reports on audit findings should be          in section G.2, below, reports of fraud or systemic   summaries of corrective action taken and
periodically provided and explained to a parent          problems should also be made to the appropriate       improvements made to home health agency policies
organization’s senior staff and officers.                governmental authority.                               as a result of compliance activities.
42424                         Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

   • Examination of home health agency               actions have been implemented                             steps may include an immediate referral
complaint logs;                                      successfully.                                             to criminal and/or civil law enforcement
   • Checking personnel records to                      The home health agency should                          authorities, a corrective action plan,117
determine whether any individuals who                document its efforts to comply with                       a report to the Government,118 and the
have been reprimanded for compliance                 applicable statutes, regulations, and                     return of any overpayments, if
issues in the past are among those                   Federal health care program                               applicable.
currently engaged in improper conduct;               requirements. For example, where a                           Where potential fraud or False Claims
   • Interviews with personnel involved              home health agency, in its efforts to                     Act liability is not involved, the OIG
in management, operations, claim                     comply with a particular statute,                         recommends that normal repayment
development and submission, patient                  regulation or program requirement,                        channels should be used for returning
care, and other related activities;                  requests advice from a Government                         overpayments to the Government as
   • Questionnaires developed to solicit             agency (including a Medicare fiscal                       they are discovered. However, even if
impressions of a broad cross-section of              intermediary or carrier) charged with                     the overpayment detection and return
the home health agency’s employees                   administering a Federal health care                       process is working and is being
and staff;                                           program, the home health agency                           monitored by the home health agency’s
   • Interviews with physicians who                  should document and retain a record of                    audit or billing divisions, the OIG still
order services provided by the home                  the request and any written or oral                       believes that the compliance officer
health agency;                                       response. This step is extremely                          needs to be made aware of these
   • Reviews of clinical documentation               important if the home health agency                       overpayments, violations, or deviations
(e.g., plan of care, nursing notes, etc.),           intends to rely on that response to guide                 that may reveal trends or patterns
financial records, and other source                  it in future decisions, actions, or claim                 indicative of a systemic problem.
documents that support claims for                    reimbursement requests or appeals. A                         Depending upon the nature of the
reimbursement and Medicare cost                      log of oral inquiries between the home                    alleged violations, an internal
reports;                                             health agency and third parties will                      investigation will probably include
   • Validation of qualifications of                 help the organization document its                        interviews and a review of relevant
physicians who order services provided               attempts at compliance. In addition, the                  documents. Some home health agencies
by the home health agency;                           home health agency should maintain                        should consider engaging outside
   • Evaluation of written materials and             records relevant to the issue of whether                  counsel, auditors, or health care experts
documentation outlining the home                     its reliance was ‘‘reasonable’’ and                       to assist in an investigation.
                                                     whether it exercised due diligence in                        Records of the investigation should
health agency’s policies and procedures;
                                                     developing procedures and practices to                    contain documentation of the alleged
and
                                                     implement the advice.                                     violation, a description of the
   • Trend analyses, or longitudinal
                                                                                                               investigative process (including the
studies, that uncover deviations,                    G. Responding to Detected Offenses and                    objectivity of the investigators and
positive or negative, in specific areas              Developing Corrective Action Initiatives                  methodologies utilized), copies of
over a given period.                                                                                           interview notes and key documents, a
                                                     1. Violations and Investigations
The reviewers should:                                                                                          log of the witnesses interviewed and the
                                                        Violations of a home health agency’s
                                                                                                               documents reviewed, the results of the
   • Have the qualifications and                     compliance program, failures to comply
                                                                                                               investigation, e.g., any disciplinary
experience necessary to adequately                   with applicable Federal or State law,
                                                                                                               action taken, and the corrective action
identify potential issues with the subject           and other types of misconduct threaten
                                                                                                               implemented. While any action taken as
matter that is reviewed;                             a home health agency’s status as a
                                                                                                               the result of an investigation will
   • Be objective and independent of                 reliable, honest and trustworthy
                                                                                                               necessarily vary depending upon the
line management to the extent                        provider capable of participating in
                                                                                                               home health agency and the situation,
reasonably possible; 115                             Federal health care programs. Detected
                                                                                                               home health agencies should strive for
   • Have access to existing audit and               but uncorrected misconduct can
                                                                                                               some consistency by utilizing sound
health care resources, relevant                      seriously endanger the mission,
                                                                                                               practices and disciplinary protocols.119
personnel, and all relevant areas of                 reputation, and legal status of the home
operation;                                           health agency. Consequently, upon                            117 Advice from the home health agency’s in-
   • Present written evaluative reports              reports or reasonable indications of                      house counsel or an outside law firm may be sought
on compliance activities to the CEO,                 suspected noncompliance, it is                            to determine the extent of the home health agency’s
governing body, and members of the                   important that the compliance officer or                  liability and to plan the appropriate course of
                                                     other management officials immediately                    action.
compliance committee on a regular                                                                                 118 The OIG currently maintains a voluntary
basis, but no less often than annually;              investigate the conduct in question to                    disclosure program that encourages providers to
and                                                  determine whether a material violation                    report suspected fraud. The concept of voluntary
   • Specifically identify areas where               of applicable law or the requirements of                  self-disclosure is premised on a recognition that the
                                                     the compliance program has occurred,                      Government alone cannot protect the integrity of
corrective actions are needed.                                                                                 the Medicare and other Federal health care
   With these reports, home health                   and if so, take decisive steps to correct                 programs. Health care providers must be willing to
agency management can take whatever                  the problem.116 As appropriate, such                      police themselves, correct underlying problems,
steps are necessary to correct past                                                                            and work with the Government to resolve these
                                                       116 Instances of noncompliance must be                  matters. The OIG’s voluntary self-disclosure
problems and prevent them from                                                                                 program has four prerequisites: (1) The disclosure
                                                     determined on a case-by-case basis. The existence,
recurring. In certain cases, subsequent              or amount, of a monetary loss to a health care            must be on behalf of an entity and not an
reviews or studies would be advisable to             program is not solely determinative of whether or         individual; (2) the disclosure must be truly
ensure that the recommended corrective               not the conduct should be investigated and reported       voluntary (i.e., no pending proceeding or
                                                     to governmental authorities. In fact, there may be        investigation); (3) the entity must disclose the
                                                     instances where there is no readily identifiable          nature of the wrongdoing and the harm to the
  115 The OIG recognizes that home health agencies
                                                     monetary loss at all, but corrective action and           Federal health care programs; and (4) the entity
that are small in size and have limited resources    reporting are still necessary to protect the integrity    must not be the subject of a bankruptcy proceeding
may not be able to use internal reviewers who are    of the applicable program and its beneficiaries, (e.g.,   before or after the self-disclosure.
not part of line management or hire outsider         where services required by a plan of care were not           119 The parameters of a claim review subject to an

reviewers.                                           provided.                                                 internal investigation will depend on the
                               Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices                                                      42425

Further, after a reasonable period, the                 demonstrate the home health agency’s                    overpayments within a reasonable
compliance officer should review the                    good faith and willingness to work with                 period of time could be interpreted as
circumstances that formed the basis for                 governmental authorities to correct and                 an intentional attempt to conceal the
the investigation to determine whether                  remedy the problem. In addition,                        overpayment from the Government,
similar problems have been uncovered                    reporting such conduct will be                          thereby establishing an independent
or modifications of the compliance                      considered a mitigating factor by the                   basis for a criminal violation with
program are necessary to prevent and                    OIG in determining administrative                       respect to the home health agency, as
detect other inappropriate conduct or                   sanctions (e.g., penalties, assessments,                well as any individuals who may have
violations.                                             and exclusion), if the reporting provider               been involved.126 For this reason, home
   If an investigation of an alleged                    becomes the target of an OIG                            health agency compliance programs
violation is undertaken and the                         investigation.123                                       should emphasize that overpayments
compliance officer believes the integrity                  When reporting misconduct to the                     obtained from Medicare and other
of the investigation may be at stake                    Government, a home health agency                        Federal health care programs should be
because of the presence of employees                    should provide all evidence relevant to                 promptly disclosed and returned to the
under investigation, those subjects                     the alleged violation of applicable                     payor that made the erroneous payment.
should be removed from their current                    Federal or State law(s) and potential
work activity until the investigation is                                                                        III. Conclusion
                                                        cost impact. The compliance officer,
completed (unless an internal or                        under advice of counsel, and with                          Through this document, the OIG has
Government-led undercover operation                     guidance from the governmental                          attempted to provide a foundation to the
known to the home health agency is in                   authorities, could be requested to                      process necessary to develop an
effect). In addition, the compliance                    continue to investigate the reported                    effective and cost-efficient home health
officer should take appropriate steps to                violation. Once the investigation is                    agency compliance program. As
secure or prevent the destruction of                    completed, the compliance officer                       previously stated, however, each
documents or other evidence relevant to                 should be required to notify the                        program must be tailored to fit the needs
the investigation. If the home health                   appropriate governmental authority of                   and resources of an individual home
agency determines that disciplinary                     the outcome of the investigation,                       health agency, depending upon its
action is warranted, it should be prompt                including a description of the impact of                particular corporate structure, mission,
and imposed in accordance with the                      the alleged violation on the operation of               and employee composition. The
home health agency’s written standards                  the applicable health care programs or                  statutes, regulations, and guidelines of
of disciplinary action.                                 their beneficiaries. If the investigation               the Federal and State health insurance
                                                        ultimately reveals that criminal, civil, or             programs, as well as the policies and
2. Reporting
                                                        administrative violations have occurred,                procedures of the private health plans,
   If the compliance officer, compliance                                                                        should be integrated into every home
committee, or management official                       the appropriate Federal and State
                                                        authorities 124 should be notified                      health agency’s compliance program.
discovers credible evidence of                                                                                     The OIG recognizes that the health
misconduct from any source and, after                   immediately.
                                                                                                                care industry in this country, which
a reasonable inquiry, has reason to                        As previously stated, the home health
                                                                                                                reaches millions of beneficiaries and
believe that the misconduct may violate                 agency should take appropriate
                                                                                                                expends about a trillion dollars
criminal, civil, or administrative law,                 corrective action, including prompt
                                                                                                                annually, is constantly evolving. In
then the home health agency should                      identification of any overpayment to the
                                                                                                                particular, the home health industry is
promptly report the existence of                        affected payor and the imposition of
                                                                                                                currently responding to recent
misconduct to the appropriate Federal                   proper disciplinary action. If potential
                                                                                                                legislative changes that have created
and State authorities 120 within a                      fraud or violations of the False Claims
                                                                                                                additional program participation
reasonable period, but not more than                    Act are involved, any repayment of the
                                                                                                                requirements and is gearing up for the
sixty (60) days 121 after determining that              overpayment should be made as part of
                                                                                                                changes underway in the areas of home
there is credible evidence of a                         the discussion with the Government
                                                                                                                health reimbursement and payment
violation.122 Prompt reporting will                     following a report of the matter to law
                                                                                                                methodologies. However, the time is
                                                        enforcement authorities. Otherwise,
                                                                                                                right for home health agencies to
circumstances surrounding the issue(s) identified.      normal repayment channels should be
                                                                                                                implement a strong voluntary
By limiting the scope of an internal audit to current   used for repaying identified
billing, a home health agency may fail to discover                                                              compliance program concept in health
                                                        overpayments.125 Failure to disclose
major problems and deficiencies in operations, as                                                               care. As stated throughout this
well as be subject to certain liability.                                                                        guidance, compliance is a dynamic
  120 Appropriate Federal and State authorities         to governmental authorities, prior to, or
                                                        simultaneous with, commencing an internal               process that helps to ensure that home
include the Office of Inspector General of the
Department of Health and Human Services, the            investigation, e.g., if the conduct: (1) Is a clear     health agencies and other health care
Criminal and Civil Divisions of the Department of       violation of criminal law; (2) has a significant        providers are better able to fulfill their
Justice, the U.S. Attorney in relevant districts, and   adverse effect on the quality of care provided to
                                                        program beneficiaries (in addition to any other legal   commitment to ethical behavior, as well
the other investigative arms for the agencies
administering the affected Federal or State health      obligations regarding quality of care); or (3)          as meet the changes and challenges
care programs, such as the State Medicaid Fraud         indicates evidence of a systemic failure to comply
Control Unit, the Defense Criminal Investigative        with applicable laws or an existing corporate           further guidance regarding normal repayment
Service, and, the Department of Veterans Affairs        integrity agreement, regardless of the financial        channels. The home health agency’s Medicare fiscal
and the Office of Personnel Management (which           impact on Federal health care programs.                 intermediary or HCFA may require certain
                                                          123 The OIG has published criteria setting forth
administers the Federal Employee Health Benefits                                                                information (e.g., alleged violation or issue causing
Program).                                               those factors that the OIG takes into consideration     overpayment, description of the internal
  121 In contrast, to qualify for the ‘‘not less than   in determining whether it is appropriate to exclude     investigative process with methodologies used to
double damages’’ provision of the False Claims Act,     a health care provider from program participation       determine any overpayments, disciplinary actions
the report must be provided to the government           pursuant to 42 U.S.C. 1320a–7(b)(7) for violations      taken, and corrective actions taken, etc.) To be
within thirty (30) days after the date when the home    of various fraud and abuse laws. See 62 FR 67392        submitted with return of any overpayments, and
health agency first obtained the information. 31        (1997).                                                 that such repayment information be submitted to a
U.S.C. 3729(a).                                           124 See note 120.                                     specific department or individual. Interest will be
  122 The OIG believes that some violations may be        125 A home health agency should consult with its      assessed, when appropriate. See 42 CFR 405.376.
so serious that they warrant immediate notification     Medicare fiscal intermediary or HCFA for any              126 See U.S.C. 130a–7b(a)(3).
42426                      Federal Register / Vol. 63, No. 152 / Friday, August 7, 1998 / Notices

being imposed upon them by Congress              Cancer Control, National Institutes of Health,   DEPARTMENT OF HEALTH AND
and private insurers. Ultimately, it is          HHS)                                             HUMAN SERVICES
OIG’s hope that a voluntarily created              Dated: July 31, 1998.
compliance program will enable home              LaVerne Y. Stringfield,                          National Institutes of Health
health agencies to meet their goals,             Committee Management Officer, NIH.
improve the quality of patient care, and                                                          National Center For Research
                                                 [FR Doc. 98–21240 Filed 8–6–98; 8:45 am]
substantially reduce fraud, waste, and                                                            Resources; Notice of Closed Meetings
                                                 BILLING CODE 4140–01–M
abuse, as well as the cost of health care
to Federal, State, and private health                                                                Pursuant to section 10(d) of the
insurers.                                                                                         Federal Advisory Committee Act, as
                                                 DEPARTMENT OF HEALTH AND
                                                                                                  amended (5 U.S.C. Appendix 2), notice
  Dated: July 31, 1998.                          HUMAN SERVICES
                                                                                                  is hereby given of the following
June Gibbs Brown,                                                                                 meetings.
                                                 National Institutes of Health
Inspector General.
                                                                                                     The meetings will be closed to the
[FR Doc. 98–20966 Filed 8–6–98; 8:45 am]         National Cancer Institute; Notice of             public in accordance with the
BILLING CODE 4150–04–P                           Closed Meeting                                   provisions set forth in sections
                                                                                                  552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
                                                    Pursuant to section 10(d) of the              as amended. The grant applications and
DEPARTMENT OF HEALTH AND                         Federal Advisory Committee Act, as               the discussions could disclose
HUMAN SERVICES                                   amended (5 U.S.C. Appendix 2), notice            confidential trade secrets or commercial
                                                 is hereby given of the following                 property such as patentable material,
National Institutes of Health                    meeting.                                         and personal information concerning
National Cancer Institute; Notice of                The meeting will be closed to the             individuals associated with the grant
Closed Meeting                                   pubic in accordance with the provisions          applications, the disclosure of which
                                                 set forth in sections 552b(c)(4) and             would constitute a clearly unwarranted
   Pursuant to section 10(d) of the              552b(c)(6), Title 5 U.S.C., as amended.          invasion of personal privacy.
Federal Advisory Committee Act, as               The contract proposals and the                     Name of Committee: National Center for
amended (5 U.S.C. Appendix 2), notice            discussions could disclose confidential          Research Resources Special Emphasis Panel,
is hereby given of the following                 trade secrets or commercial property             American Type Culture Collection (ATCC)
meeting.                                         such as patentable material, and                 Contract Evaluation.
   The meeting will be closed to the             personal information concerning                    Date: September 2, 1998.
public in accordance with the                    individuals associated with the contract           Time: 8 a.m. to 5 p.m.
provisions set forth in sections                 proposals, the disclosure of which                 Agenda: To review and evaluate contract
552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,       would constitute a clearly unwarranted           proposals.
as amended. The grant applications and           invasion of personal privacy.                      Place: The Bethesda Ramada, Ambassador
the discussions could disclose                                                                    One, 8400 Wisconsin Avenue, Bethesda, MD
                                                   Name of Committee: National Cancer
confidential trade secrets or commercial                                                          20814.
                                                 Institute Special Emphasis Panel Prostate,
property such as patentable material,                                                               Contact Person: D.G. Patel, PHD, Scientific
                                                 Lung Colorectal and Ovarian Cancer
and personal information concerning                                                               Review Administrator, Office of Review,
                                                 Screening Trial Expansion.
individuals associated with the grant                                                             National Center For Research Resources,
                                                   Date: August 10, 1998.
applications, the disclosure of which              Time: 12:00 PM to 2:00 PM.                     6705 Rockledge Drive, MSC 7965, Room
would constitute a clearly unwarranted             Agenda: To review and evaluate contract        6018, Bethesda, MD 20892–7965, 301–435–
invasion of personal privacy.                    proposals.                                       0824.
  Name of Committee: National Cancer               Place: 6130 Executive Blvd. 6th Floor,           Name of Committee: National Center for
Institute Special Emphasis Panel Cooperative     Rockville, MD 20852.                             Research Resources Special Emphasis Panel
Trials in Diagnostic Imaging.                      Contact Person: Wilna A. Woods, Deputy         Small Business Innovation Research.
  Date: August 11–12, 1998.                      Chief, Special Review, Referral and Research       Date: October 8, 1998.
  Time: 7:00 p.m. to 3:00 p.m.                   Branch, Division of Extramural Activities,         Time: 10 a.m. to 12 p.m.
  Agenda: To review and evaluate grant           National Cancer Institute, National Institutes     Agenda: To review and evaluate contract
applications.                                    of Health, Rockeville, MD 20852, (301) 496–      proposals.
  Place: Ramada Inn, 1775 Rockville Pike,        7903.                                              Place: 6705 Rockledge Drive, Suite 6018,
Rockville, MD 20852.                               This notice is being published less than 15    Bethesda, MD 20892, (Telephone Conference
  Contact Person: Ray Bramhall, Scientific       days prior to the meeting due to the timing      Call).
Review Administrator, Special Review,            limitations imposed by the review and              Contact Person: D.G. Patel, PHD, Scientific
Referral and Resources Branch, Division of       funding cycle.                                   Review Administrator, Office of Review,
Extramural Activities, National Cancer           (Catalogue of Federal Domestic Assistance        National Center for Research Resources, 6705
Institute, National Institutes of Health, 6130   Program Nos. 93.393, Cancer Cause and            Rockledge Drive, MSC 7965, Room 6018,
Executive Blvd., Rockville, MD 20892, (301)      Prevention Research; 93.394, Cancer              Bethesda, MD 20892–7965, 301–435–0824.
496–3428.                                        Detection and Diagnosis Research; 93.395,
  This notice is being published less than 15    Cancer Treatment Research; 93.396, Cancer        (Catalogue of Federal Domestic Assistance
days prior to the meeting due to the timing      Biology Research; 93.397, Cancer Centers         Program Nos. 93.306, Comparative Medicine,
limitations imposed by the review and            Support; 93.398, Cancer Research Manpower;       93.306; 93.333, Clinical Research, 93.333;
funding cycle.                                   93.399, Cancer Control; 93.392, Cancer           93.371, Biomedical Technology; 93.389,
(Catalogue of Federal Domestic Assistance        Construction, National Institutes of Health,     Research Infrastructure, National Institutes of
Program Nos. 93.392, Cancer Construction;        HHS)                                             Health, HHS)
93.393, Cancer Cause and Prevention                Dated: August 4, 1998.                           Dated: July 31, 1998.
Research; 93.394, Cancer Detection and           LaVerne Y. Stringfield,                          LaVerne Y. Stringfield,
Diagnosis Research; 93.395, Cancer
                                                 Committee Management Officer, NIH.               Committee Management Officer, NIH.
Treatment Research; 93.396, Cancer Biology
Research; 93.397, Cancer Centers Support;        [FR Doc. 98–21246 Filed 8–6–98; 8:45 am]         [FR Doc. 98–21241 Filed 8–6–98; 8:45 am]
93.398, Cancer Research Manpower; 93.399,        BILLING CODE 4140–01–M                           BILLING CODE 4140–01–M
